<html>
<title> - EXPANDING OPTIONS FOR EMPLOYERS AND WORKERS THROUGH EARN-AND-LEARN OPPORTUNITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                  EXPANDING OPTIONS FOR EMPLOYERS AND
                     WORKERS THROUGH EARN-AND-LEARN
                             OPPORTUNITIES

=======================================================================

                                 HEARING

                               BEFORE THE

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 26, 2017

                               __________

                           Serial No. 115-25

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                               __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-299 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Elise Stefanik, New York             Mark Takano, California
Rick W. Allen, Georgia               Alma S. Adams, North Carolina
Jason Lewis, Minnesota               Mark DeSaulnier, California
Francis Rooney, Florida              Donald Norcross, New Jersey
Paul Mitchell, Michigan              Lisa Blunt Rochester, Delaware
Tom Garrett, Jr., Virginia           Raja Krishnamoorthi, Illinois
Lloyd K. Smucker, Pennsylvania       Carol Shea-Porter, New Hampshire
A. Drew Ferguson, IV, Georgia        Adriano Espaillat, New York
Ron Estes, Kansas
Karen Handel, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                   BRETT GUTHRIE, Kentucky, Chairman

Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Lou Barletta, Pennsylvania             Ranking Member
Luke Messer, Indiana                 Joe Courtney, Connecticut
Bradley Byrne, Alabama               Alma S. Adams, North Carolina
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Elise Stefanik, New York             Raja Krishnamoorthi, Illinois
Rick W. Allen, Georgia               Jared Polis, Colorado
Jason Lewis, Minnesota               Gregorio Kilili Camacho Sablan,
Paul Mitchell, Michigan                Northern Mariana Islands
Tom Garrett, Jr., Virginia           Mark Takano, California
Lloyd K. Smucker, Pennsylvania       Lisa Blunt Rochester, Delaware
Ron Estes, Kansas                    Adriano Espaillat, New York
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 26, 2017....................................     1

Statement of Members:
    Davis, Hon. Susan A., Ranking Member, Subcommittee on Higher 
      Education and Workforce Development........................     4
        Prepared statement of....................................     5
    Guthrie, Hon. Brett, Chairman, Subcommittee on Higher 
      Education and Workforce Development........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bennett, Mr. Mike, Vice President, Cianbro, Pittsfield, Maine     7
        Prepared statement of....................................    10
    Hogan, Mr. Rob, Vice President of Manufacturing and Material 
      Distribution, Newport News Shipbuilding, Newport News, 
      Virginia...................................................    23
        Prepared statement of....................................    25
    Johnson Hughes, Ms. Stacey, State Chair, Kentucky Federation 
      for Advanced Manufacturing Education (KYFAME), 
      Russellville, Kentucky.....................................    35
        Prepared statement of....................................    38
    Peglow, Mr. Robert, Student, Kentucky Federation for Advanced 
      Manufacturing Education (KYFAME), Franklin Kentucky........    19
        Prepared statement of....................................    21

Additional Submissions:
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        Letter dated July 25, 2017 from Collins & Jewell Company.    52
        Slide: USA Today.........................................    89
        Photograph of Rep. William Fitzgerald....................    90
    Mrs. Davis:
        Statement for the record from National Electrical 
          Contractors Association (NECA).........................    71
        Construction Apprenticeship..............................    75
    Mr. Peglow:
        KYFAME...................................................    91
    Questions submitted for the record by:
        Barletta, Hon. Lou, a Representative in Congress from the 
          State of Pennsylvania..................................    93
        Mrs. Davis...............................................    97
    Responses to questions submitted for the record:
        Mr. Barletta.............................................    95
        Mrs. Davis...............................................    97

 
                  EXPANDING OPTIONS FOR EMPLOYERS AND
                     WORKERS THROUGH EARN-AND-LEARN
                             OPPORTUNITIES

                              ----------                              


                        Wednesday, July 26, 2017
                        
                       House of Representatives,
                    Subcommittee on Higher Education
                        and Workforce Development
               Committee on Education and the Workforce
                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Brett Guthrie 
[chairman of the subcommittee] presiding.
    Present: Representatives Guthrie, Messer, Byrne, Grothman, 
Stefanik, Allen, Lewis, Mitchell, Smucker, Estes, Davis, 
Courtney, Adams, DeSaulnier, Krishnamoorthi, Polis, Takano, and 
Espaillat.
    Also Present: Representative Foxx, Scott, and Norcross.
    Staff Present: Caitlin Burke, Legislative Assistant; 
Courtney Butcher, Director of Member Services and Coalitions; 
Michael Comer, Press Secretary; Amy Raaf Jones, Director of 
Education and Human Resources Policy; Nancy Locke, Chief Clerk; 
James Mullen, Director of Information Technology; Krisann 
Pearce, General Counsel; Alexandra Pena, Staff Assistant; James 
Redstone, Professional Staff Member; Mandy Schaumburg, 
Education Deputy Director and Senior Counsel; Michael Woeste, 
Press Secretary; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Austin Barbera, Minority Press Assistant; Denise 
Forte, Minority Staff Director; Mishawn Freeman, Minority Staff 
Assistant; Eunice Ikene, Minority Labor Policy Advisor; Richard 
Miller, Minority Senior Labor Policy Advisor; Udochi Onwubiko, 
Minority Labor Policy Counsel; Alexander Payne, Minority 
Education Policy Advisor; Veronique Pluviose, Minority General 
Counsel; and Erin Robinson, Minority Policy Fellow.
    Chairman Guthrie. We will bring the committee to order. A 
quorum being present, the Subcommittee on Higher Education and 
Workforce Development will come to order.
    Good morning and welcome to today's subcommittee hearing. I 
would like to thank our panel of witnesses and our members for 
joining today's important discussion on apprenticeships, an 
opportunity for us to grow our Nation's workforce.
    I would especially like to welcome Ms. Stacey Hughes, a 
constituent of mine who lives not even a mile away, who serves 
as the State chair of the Kentucky Federation for Advanced 
Manufacturing Education, or Kentucky FAME; and Mr. Robert, or 
Robbie Peglow, a student, a Kentucky student, participating in 
Kentucky FAME. I look forward to hearing from you about how 
Kentucky is working to have young people get the skills they 
need to obtain good-paying jobs.
    Every day, hardworking Americans search for a good-paying 
job that will lead them to a successful career. Many Americans 
find a pathway to a good-paying job through apprenticeship 
programs that provide real earn-and-learn opportunities that 
often turn into careers.
    For workers, apprenticeships are a chance to prepare for 
today's high-skilled, in-demand jobs alongside long-time 
industry professionals. In fact, based on the National 
Household Education Survey, an estimated 2.1 million Americans 
participated in apprenticeships last year.
    Employers also see apprenticeships as an outlet to invest 
in work-based learning programs that attract and help to retain 
highly qualified employees. And many have seen the results in 
the form of increased productivity and greater innovation. Our 
hearing today will explore how apprenticeship-style programs 
promote workforce development while also looking at Federal 
programs that are in need of improvement.
    One aspect of apprenticeships where this committee sees 
room for improvement in order to help workers and employers is 
registered apprenticeships. Currently, registered 
apprenticeships are programs officially registered with the 
Department of Labor's Office of Apprenticeship or State office 
of apprenticeships.
    The Department of Labor has issued regulations requiring 
that registered apprenticeships meet 26 specific requirements 
relating to program design. DOL regulations also require that 
these programs adhere to equal employment opportunity 
regulations that are specific to apprenticeships. While the 
Department continues to regulate the registered apprenticeship 
program, workers and businesses are not convinced this program 
is something that is best for workforce development.
    In 2016, only 206,000 individuals nationwide became 
apprentices through the Registered Apprenticeship Program. 
Further, less than half of the earn-and-learn programs choose 
to register their programs with the Department of Labor. The 
Registered Apprenticeship Program is yet another one-size-fits-
all approach that works better for Washington than it does for 
businesses and students who wish to use apprenticeships as a 
way to grow our workforce.
    Rather than doubling down on the failed attempts of 
previous administrations to expand the registered 
apprenticeship program, this committee is looking for a better 
way to build on the successful efforts businesses have found to 
grow their own apprenticeship programs outside of the 
registered apprenticeship program.
    It should be noted that any effort to promote 
apprenticeship opportunities needs to provide employees and job 
creators with the flexibility to innovative and develop high-
quality earn-and-learn programs without the burdens of 
Washington overreach.
    This has been the approach of the committee in our many 
efforts to strengthen workforce development this Congress and 
will continue to be our approach for the future. Today's 
hearing is part of the House Committee on Education and the 
Workforce's ongoing efforts to strengthen our workforce for the 
future, and it is even more important in the realm of 
apprenticeships now that the White House has taken note of the 
true success apprenticeship programs are having for workers and 
employers alike.
    I look forward to hearing from our witnesses today on how 
they have been able to create their own innovative 
apprenticeship programs and how we can strengthen these efforts 
to help close the skills gap that exists in our country.
    I now yield to the subcommittee's ranking member, Susan 
Davis, for her opening remarks.
    [The statement of Chairman Guthrie follows:]

  Prepared Statement of Hon. Brett Guthrie, Chairman, Subcommittee on 
               Higher Education and Workforce Development

    Good morning, and welcome to today's subcommittee hearing. I'd like 
to thank our panel of witnesses and our members for joining today's 
important discussion on apprenticeships and opportunities for us to 
grow our nation's workforce. I'd especially like to welcome Ms. Stacey 
Hughes, a constituent of mine who serves as the state chair of the 
Kentucky Federation for Advanced Manufacturing Education, or KYFAME, 
and Mr. Robert Peglow, a Kentucky student participating in KYFAME. I 
look forward to hearing from you about how Kentucky is working to help 
young people get the skills they need to obtain good-paying jobs.
    Every day hardworking Americans search for a good-paying job that 
will lead them to a successful career. Many Americans find a pathway to 
a good-paying job through apprenticeship programs that provide real 
earn-and-learn opportunities that often turn into careers.
    For workers, apprenticeships are a chance to prepare for today's 
high-skilled, in-demand jobs alongside long-time industry 
professionals. In fact, based on the National Household Education 
Survey, an estimated 2.1 million Americans participated in 
apprenticeships last year.
    Employers also see apprenticeships as an outlet to invest in work-
based learning programs that attract and help to retain highly 
qualified employees, and many have seen the results in the form of 
increased productivity and greater innovation.
    Our hearing today will explore how apprenticeship-style programs 
promote workforce development, while also looking at federal programs 
that are in need of improvement.
    One aspect of apprenticeships where this committee sees room for 
improvement in order to help workers and employers is ``registered'' 
apprenticeships.
    Currently, registered apprenticeships are programs officially 
``registered'' with the Department of Labor's Office of Apprenticeship 
(OA) or a state office of apprenticeship.
    The Department of Labor has issued regulations requiring that 
registered apprenticeships meet twenty-six specific requirements 
relating to program design. DOL regulations also require that these 
programs adhere to equal employment opportunity regulations that are 
specific to apprenticeships.
    While the department continues to regulate the registered 
apprenticeship program, workers and businesses are not convinced this 
program is something that is best for workforce development.
    In 2016, only 206,000 individuals nationwide became apprentices 
through the registered apprenticeship program. Further, less than half 
of earn-and-learn programs choose to register their programs with the 
Department of Labor.
    The registered apprenticeship program is yet another one-size-fits-
all approach that works better for Washington than it does for 
businesses and students who wish to use apprenticeships as a way to 
grow our workforce.
    Rather than doubling down on the failed attempts of previous 
administrations to expand the registered apprenticeship program, this 
committee is looking for a better way to build on the successful 
efforts businesses have found to grow their own apprenticeship programs 
outside of the registered apprenticeships program.
    It should be noted that any effort to promote apprenticeship 
opportunities needs to provide employees and job creators with the 
flexibility to innovate and develop high quality earn-and-learn 
programs without the burdens of Washington overreach.
    This has been the approach of the committee in our many efforts to 
strengthen workforce development this Congress, and it will continue to 
be our approach for the future.
    Today's hearing is part of the House Committee on Education and the 
Workforce's ongoing efforts to strengthen our workforce for the future, 
and it is even more important in the realm of apprenticeships now that 
the White House has taken note of the true success apprenticeship 
programs are having for workers and employers alike.
    I look forward to hearing from our witnesses today on how they have 
been able to create their own innovative apprenticeship programs, and 
how we can strengthen these efforts to help close the skills gap that 
exists in our country.
                                 ______
                                 
    Mrs. Davis. Thank you, Mr. Chairman, and I am very pleased 
that we are here today to discuss successful earn-and-learn 
programs. As this committee looks to help build a highly 
skilled workforce and close the skills gap that we so often 
hear about, we must look at effective models to expand. We know 
that these models are not new, and in fact, apprenticeships 
have been training students for quality high-paying jobs for 
decades.
    Programs like The Apprentice School, which we will hear 
from today, integrate on-the-job training with related 
classroom instruction, and they also work with local community 
colleges to build and develop curriculum that allows 
apprenticeships to have stackable, transferable credentials and 
allows them to transition into other higher education pathways. 
These programs also work to educate teachers, families, and 
young people about the benefits of registered apprenticeships.
    I am interested in hearing how we can build on the 
successes of these programs to make registered apprenticeships, 
apprenticeships more exciting for young people. We often hear 
from students that they are looking for more flexible education 
options to meet their busy schedules, and we need to answer 
this call and make quality apprenticeships a viable option for 
all students. Apprenticeships must be prestigious enough to 
attract students who seek the most challenging and aspirational 
programs. Parents want to know that their children are 
receiving a quality education that will yield a widely 
recognized credential.
    As we will hear today, apprenticeships are not the only 
successful earn-and-learn model. However, if taxpayers are 
going to invest in these important programs, there must be 
accountability for students and their families.
    I look forward to working with my colleagues on this 
committee to expand upon the registration process for 
apprenticeships while ensuring that protections remain in place 
for students. We will want to make sure that we don't just 
dismantle programs. What we need to be doing is be sure that 
the protections are there, because, otherwise, I think we 
really do a disservice to our students and what their 
expectations are.
    I also believe that we can make apprenticeships more 
appealing by expanding them beyond the traditional trades. We 
would like to see companies build upon the phenomenal work that 
the building trades have done to open up apprenticeships in new 
industries. Just this year, Amazon announced it was starting a 
registered apprenticeship program for veterans in its IT cloud 
computing space. And Microsoft has recently announced one as 
well. This, I believe, is a key to how we expand 
apprenticeships in the U.S. It has to work for those 
businesses.
    By recognizing and rewarding companies who develop 
successful programs, we can incentivize more industries to 
expand apprenticeships across the country. And we know that we 
have to engage with all of our partners in this effort, whether 
it is learning from the important work that unions have done in 
this space, asking businesses to continue engaging with the 
Department of Labor's Office of Apprenticeships, or looking to 
schools and nonprofit organizations to develop meaningful 
curriculum for apprentices. We know that this must be a 
collaborative process.
    Last week, in a disappointing maneuver, the Labor, Health 
and Human Services bill eliminated Federal dollars for 
apprenticeship programs and called on the authorizers to pass 
an authorization bill. These dollars in the past were used to 
promote diversity and support intermediaries so that small 
businesses can benefit from apprenticeships. So, if that is the 
case, let's give the appropriators clarity in the form of an 
authorization. I know that we have a number of Members, some in 
this committee and some having been on the committee, who have 
been developing important pieces of legislation. Let's take a 
look at that and let's perhaps use that as a jumping off point 
for doing an authorization. I know, through my conversations 
with members of this committee, that apprenticeships have great 
support, and I am delighted to see that. I hope we can come 
together in a bipartisan manner to promote registered 
apprenticeship programs.
    Thank you very much, Mr. Chairman.
    [The statement of Mrs. Davis follows:]

Prepared Statement of Hon. Susan A. Davis, Ranking Member, Subcommittee 
             on Higher Education and Workforce Development

    I am thrilled that we are here today to discuss successful earn-
and-learn programs. As this Committee looks to help build a highly 
skilled workforce and close the skills gap that we so often hear about, 
we must look at effective models to expand. We know that these models 
are not new. In fact, registered apprenticeships have been training 
students for quality, high-paying jobs for decades.
    Programs like The Apprentice School, which we'll hear from today, 
integrate on-the-job training with related classroom instruction. They 
also work with local community colleges to build and develop curriculum 
that allows apprentices to have stackable, transferable credentials and 
allow them to transition into other higher education pathways. These 
programs also work to educate teachers, families and young people about 
the benefits of registered apprenticeships.
    I am interested in hearing how we can build on the successes of 
these programs to make registered apprenticeships more exciting for 
young people. We often hear from students that they're looking for more 
flexible education options to meet their busy schedules. We need to 
answer this call and make quality apprenticeships a viable option for 
all students.
    Apprenticeships must be prestigious enough to attract students who 
seek the most challenging and aspirational programs. Parents want to 
know that their children are receiving a quality education that will 
yield a widely recognized credential.
    As we'll hear today, apprenticeships are not the only successful 
earn and learn model. However, if taxpayers are going to invest in 
these important programs, there must be accountability for students and 
their families.
    I look forward to working with my colleagues on this committee to 
expand upon the registration process for apprenticeships, while 
ensuring that protections remain in place for students. If our only 
goal is to dismantle protections for students, then we are doing them a 
great disservice.
    I also believe that we can make apprenticeships more appealing by 
expanding them beyond the traditional trades. We'd like to see 
companies build upon the phenomenal work that the building trades have 
done to open up apprenticeships in new industries.
    Just this year Amazon announced it was starting a registered 
apprenticeship program for veterans in its IT cloud computing space. 
And Microsoft has recently announced one as well. This, I believe, is 
the key to how we expand apprenticeships in the US.
    By recognizing and rewarding companies who develop successful 
programs, we can incentivize more industries to expand apprenticeships 
across the country.
    And we know that we have to engage with all of our partners in this 
effort. Whether it is learning from the important work that unions have 
done in this space, asking businesses to continue engaging with the 
Department of Labor's Office of Apprenticeships, or looking to schools 
and nonprofit organizations to develop meaningful curriculum for 
apprentices, we know that this must be a collaborative process.
    Last week, in a disappointing maneuver, the Labor, Health and Human 
Services bill eliminated federal dollars for apprenticeship programs 
and called on the authorizers to pass an authorization bill. These 
dollars in the past were used to promote diversity and support 
intermediaries so that small businesses can benefit from 
apprenticeships.
    If that's the case, let's give the appropriators clarity in the 
form of an authorization. I know that Ranking Member Scott, myself, and 
most of the Democrats on this committee support Rep. Pocan's LEARNs act 
and are willing to have a markup on it tomorrow, if the Chair would 
schedule it.
    I know through my conversations with Members of this Committee that 
apprenticeships have great support. I hope we can come together in a 
bipartisan manner to promote registered apprenticeship programs.
                                 ______
                                 
    Chairman Guthrie. Thank you for yielding back, and I do 
believe we can move forward in a good manner. I appreciate 
that.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record.
    And, without objection, the hearing record will remain open 
for 14 days to allow such statements and other extraneous 
material referenced during the hearing to be submitted for the 
official hearing record.
    I will now introduce our witnesses for this morning's 
hearings.
    Mr. Mike Bennett is the vice president of Cianbro Companies 
and is testifying on behalf of the Associated Builders and 
Contractors.
    Mr. Robbie Peglow is an apprenticeship student testifying 
on behalf of Kentucky Federation for Advanced Manufacturing 
Education or Kentucky FAME.
    I will now recognize Ranking Member Scott to introduce our 
next witness.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, our next witness is Bob Hogan, who is Vice 
President of Manufacturing and Material Distribution from 
Newport News Shipbuilding. He is on the Board of Directors of 
the Commonwealth Center for Advanced Manufacturing and the 
Virginia Manufacturing Association, where he recently served as 
chairman. He is active in the American Welding Society, Society 
for Manufacturing Engineers, and the Association for 
Manufacturing Excellence.
    He knows about apprenticeship programs because he is, in 
fact, a graduate of the Newport News Shipbuilding Apprentice 
School, and he will describe the school, I am sure, as the best 
in the Nation. It is really the gold standard for 
apprenticeship programs. So we welcome him here and thank you 
for the opportunity to introduce him.
    Chairman Guthrie. Thank you.
    Thank you, Mr. Ranking member.
    And, also, now I would like to introduce Ms. Stacey Johnson 
Hughes as the State chair of Kentucky Federation for Advanced 
Manufacturing Education, a good friend and a neighbor.
    We appreciate you being here.
    And, also, her employer is one of our great local 
employers, which is Logan Aluminum. So we appreciate that.
    I will now ask the witnesses to raise your right hands.
    [Witnesses sworn.]
    Chairman Guthrie. Let the record reflect the witnesses 
answered in the affirmative. Before I recognize you to provide 
you for your testimony, let me briefly explain the lighting 
system. Each of you will have 5 minutes to present your 
testimony. When you begin, the light in front of you will turn 
green. When 1 minute is left, the light will turn yellow. When 
your time is expired, the light will turn red. At that point, I 
will ask that you wrap up your remarks as best as you're able.
    Members will each have 5 minutes to ask you questions 
following your opening statements, and I will recognize the 
witnesses in order.
    And, first, Mr. Bennett, you're recognized for 5 minutes 
for your opening statement.

STATEMENT OF MIKE BENNETT, VICE PRESIDENT, CIANBRO, PITTSFIELD, 
                             MAINE

    Mr. Bennett. Good morning, Chairman Guthrie, Ranking Member 
Davis, Chairwoman Foxx, and members of the Subcommittee on 
Higher Education and Workforce Development.
    Let me begin by thanking each of you for this opportunity 
to testify before you today on how to expand opportunities for 
Americans through workforce development and the earn-and-learn 
model. Again, my name is Michael Bennett. I am the vice 
president of the Cianbro Companies based out of Pittsfield, 
Maine. I have been with the organization for 21 years, and 
today I'm here to testify on behalf of Associated Builders and 
Contractors.
    As an employee/owner of Cianbro, I'm pleased to share with 
you that Cianbro is one of the United States' largest, most 
diversified, open shop, 100 percent employee-owned, 
construction companies. We operate in 41 States, and we employ 
more than 4,000 team members, managing and self-performing 
heavy civil, structural, mechanical, electrical, steel 
fabrication and coating work. We are recognized nationally in 
pursuing health and wellness in the workplace with such 
distinctions as the healthiest and safest company in America, 
and that was awarded by the American College of Occupational 
and Environmental Medicine.
    And while I would love to continue to talk about the 
company that I'm so proud of during this testimony this 
morning, that's really not why I'm here. I'm here to talk about 
the skills gap and the workforce shortage or, on a more macro 
level, developing the next generation of skilled workers, craft 
professionals, in a way that promotes safety, continual 
learning, and career development.
    Right now, in our industry, there are approximately 500,000 
skilled construction jobs available with modest economic growth 
and the potential of a $1 trillion infrastructure bill, that 
number could balloon to 1 million by 2020, which is less than 3 
years away. To fill these jobs, we must have safe and efficient 
workers. To do this, we must have flexibility. Our clients are 
sophisticated. Our workforce development models must evolve to 
meet these demands.
    At Associated Builders and Contractors, as with Cianbro, we 
support all workforce programs that develop people and help 
them reach their potential, whether they're defined by the 
government or driven by industry. And we call this an all-of-
the-above approach to educating the construction professionals.
    I have listed some improvements in my written testimony, 
but I wanted to share a few of those verbally with you today as 
we develop the strategy it needs to include creating multiple 
pathways for apprenticeships by acknowledging industry-
recognized programs as we do registered apprenticeship 
programs.
    We need to establish reciprocity across Federal and State 
apprenticeship councils. We need to allow for the utilization 
of nationally recognized portable industry credentialing 
programs with third-party oversight. The programs must be 
industry- and market-driven and flexible in structure, 
scheduling, and duration to address the changes with an 
industry's means, methods, and technology.
    Programs should be competency-based, allowing those who 
quickly master a skill to progress quicker than those who may 
require more time. And we need to allow for targeted programs 
to be developed. Competencies evolve quickly. With the changing 
business demands, an employee should be able to build those 
targeted competencies for those demand positions to meet our 
clients' needs.
    Why does Cianbro value industry-recognized programs? 
Because they work. Industry-recognized programs come in all 
shapes and sizes, and that is the beauty of them. They provide 
the highest level of flexibility that benefits the worker, 
their company, and their client. Industry-recognized programs 
give the entire American public an opportunity to learn a 
skill, develop themselves, and build their careers.
    I'm not here today to criticize registered apprenticeship 
programs; rather, I'm here to urge you as lawmakers to support 
our industry by encouraging an all-of-the-above approach in 
filling the skills gap. This is why the construction industry 
is so excited about President Trump's executive order to expand 
on the apprenticeship opportunities for all Americans. By 
encouraging industry-recognized programs and embracing an all-
of-the-above approach to workforce development, the President's 
executive order shows a commitment to innovation and embracing 
the methods that work.
    And, in closing, I would like to leave you with these 
sentiments: Every day, I am thankful for the skilled craft 
professionals who provide me with the creature comforts we all 
enjoy: a warm and dry home, power, safe roads, reliable 
transportation. As a society, we highly value our doctors, our 
lawyers, our dentists, but sometimes we take for granted our 
other professionals. Our country requires and deserves to have 
the best of the best at all levels of these professions. So, as 
we work together to enhance the quality and quantity of our 
skilled vocations in this country, I offer you ABC's support in 
helping to enhance our existing registered apprenticeship 
program and, more importantly, structure a flexible, industry-
recognized, nonregistered model that warrants the same level of 
recognition and respect that our current registered programs 
provide.
    I would like to thank the subcommittee for holding today's 
hearing on this important subject.
    Mr. Chairman, this concludes my formal remarks. I'm 
prepared to answer any questions that you or the other members 
of the committee may have.
    [The statement of Mr. Bennett follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Guthrie. Thank you, Mr. Bennett, for your 
testimony.
    Mr. Peglow, you're now recognized for 5 minutes for your 
statement.

 STATEMENT OF ROBERT PEGLOW, STUDENT, KENTUCKY FEDERATION FOR 
 ADVANCED MANUFACTURING EDUCATION (KYFAME), FRANKLIN, KENTUCKY

    Mr. Peglow. Hi. My name is the Robert Peglow, and my 
personal safety commitment is to always wear my safety glasses 
when necessary. I am an apprentice sponsored by Kobe Aluminum 
in Bowling Green, Kentucky.
    The KYFAME program was a once in a lifetime opportunity for 
me. It was also a second chance.
    My story begins in 2014 when I graduated from high school. 
I didn't know what I wanted to do. The only thing I knew was 
that I was going to college. I didn't like school, and I never 
have. I believe it is necessary and a great tool to obtain any 
career you would like, but it wasn't really for me. I went to 
college for 1 year after high school and didn't do so well. I 
wasn't focused or dedicated as much as I should have been, and 
I basically failed out. I took a year off to rethink what I 
really want to do and get my head in the right place.
    In the spring of 2016, I decided I was ready to go back to 
college. I still didn't know for what, but I knew I needed to. 
I also knew I was ready. I had grown up and matured. I now had 
a fiancee to think about, instead of just myself.
    I discovered the KYFAME program through a friend of mine 
and decided I would explore the option. I talked with some of 
the people that are associated with the program and decided 
this is for me; this is the opportunity I have been searching 
for.
    I started the program in the fall of 2016. I immediately 
discovered this wasn't an ordinary technical program. Most 
programs are 2-year programs where you earn a degree and then 
go to work in your field of study. In the KYFAME program, I was 
able to work 3 days a week as well as go to school the other 2 
days. I have learned more than I could have possibly imagined 
both in work and school.
    The reason why this program works so well is that everyone 
involved is fully dedicated, from the sponsoring companies to 
the professors and everyone in between. After being in the 
program for a year, I can see that their sole purpose is to 
make this program succeed.
    The professors give out their personal emails and cell 
phone numbers at the beginning of class and tell us to call or 
email any time if we need anything, and they mean it. They are 
dedicated to our success, and it shows. I have stayed after 
hours on multiple occasions with professors to study or ask 
questions. I am greeted with a smile every time and never 
rushed in our conversations.
    There are many reasons this program has been such a 
blessing to me. I have had the opportunity to go to surrounding 
high schools and speak to students interested in the program. I 
have been able to develop my skills in numerous ways beyond my 
belief. I attended the national AMT conference and presented 
there as well. Coming into the program, I would not have 
considered myself a very good public speaker, nor did I like 
doing it. Now I am the first to volunteer for presentations and 
am happy to do them.
    One of the biggest benefits I have discovered is the work 
aspect of the program. We get to work alongside experienced 
technicians every day at work. We also have an experienced 
maintenance adviser to help develop our skills and answer any 
questions we have. As students, we all go through the same 
curriculum together. There have been a few nights a group of us 
have met together and worked on projects or studied. This has 
been extremely helpful because we all have our own strengths 
and weaknesses.
    At the beginning of my statement, I gave my personal safety 
commitment. The number one thing we have been taught is our 
safety. We are expected to share our safety commitment at the 
beginning of conversations or presentations. This shows how 
committed we are in everything that we do. It is also just one 
of the many things I have learned along this journey.
    Without this KYFAME, I can say I would not be where I am 
today. I found this program at a low point in my life, and it 
has helped me change my -- turn my path around. I am now at a 
high point in my short life, and I can truly say it is because 
of KYFAME. Speaking as a student from a KYFAME chapter, I 
appreciate this committee's work on apprenticeship programs. 
I'm happy to answer any questions you may have. Thank you again 
for your time.
    [The statement of Mr. Peglow follows:]    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Guthrie. Thank you for your testimony. Your story 
and stories like yours make us all excited on both sides, and 
you are a very good public speaker, so congratulations on that.
    I now recognize Mr. Hogan for 5 minutes for his opening 
statement.

  STATEMENT OF ROB HOGAN, VICE PRESIDENT OF MANUFACTURING AND 
MATERIAL DISTRIBUTION, NEWPORT NEWS SHIPBUILDING, NEWPORT NEWS, 
                            VIRGINIA

    Mr. Hogan. Good morning and thank you, Chairman Guthrie, 
Ranking Member Davis, and distinguished members on the 
Subcommittee of Higher Education and Workforce Development.
    As kindly introduced by Mr. Scott, my name is Rob Hogan, 
and I'm the vice president of manufacturing and material 
logistics at Newport News Shipbuilding, which is a division of 
Huntington Ingalls Industries, based in Newport News, Virginia. 
And I'm honored to represent Newport News Shipbuilding in 
today's discussion and want to thank the subcommittee for this 
invitation.
    Huntington Ingalls Industries is an American Fortune 500 
company with $7 billion in annual revenues and work backlog of 
approximately $20 billion. With facilities located in Virginia, 
Mississippi, California, Florida, Texas, and Colorado, we 
employ approximately 37,000 workers. Among them are more than 
15,000 craftsmen and -women, 5,000 engineers, 1,600 of whom 
have advanced degrees, and we employ approximately 5,000 
veterans.
    At Newport News Shipbuilding, we have been in business for 
131 years, and many of our employers are third-, fourth-, and 
even fifth-generation shipbuilders. Nearly 1,000 of our 
employers are what's called master shipbuilders. These are 
employees with 40 or more years of continuous service and a 
group of which I'm proud to be included. Our shipbuilders build 
the most advanced ships in the world for the United States Navy 
using our expertise in nuclear propulsion, naval design, and 
manufacturing. We are the sole designer and builder and 
refueler of nuclear-powered aircraft carriers and one of two 
providers of nuclear-powered submarines.
    In my role, I'm responsible for all shipyard manufactured 
material, material warehousing, and material distribution for 
all of our Navy and commercial programs, and while our 
facilities and manufacturing processes are critical, I will 
tell you it is our shipbuilders who really make us successful.
    We employ 20,000 skilled craftsmen and -women and support 
personnel who are building our Nation's nuclear Navy. It is our 
responsibility and our top priority to train our shipbuilders 
and continuously develop their skills. We invest heavily in 
workforce development, spending over $80 million annually in 
various types of training. And I'll talk more in detail about 
our premier training program, The Apprentice School, in just a 
moment, but I would like to first talk about what we're doing 
to attract and hire our Nation's next generation of 
shipbuilders.
    Since we began building ships more than a century ago, two-
dimensional paper drawings have been the primary method for 
conveying design data to our shipbuilders. Today, we are 
migrating to an integrated digital enterprise to do away with 
the need for traditional drawings, and we're leveraging 
technology to transform how we build ships. Recognizing that 
this digital transformation will touch all areas of our 
business, we are coordinating with community colleges and 
university partners to incorporate digital shipbuilding 
techniques into many fields of study, including engineering, 
design, IT, and trades training.
    We are also actively involved with workforce investment 
boards, school districts, and local community colleges in 
several other ways. We support a Career Pathways program in 
concert with public schools throughout Hampton Roads where 
employees mentor students and provide opportunities to 
experience future careers.
    Another program we lead is called Girls with Engineering 
Minds in Shipbuilding, or GEMS, where our female engineers 
serve as mentors to middle school girls, encouraging them to 
pursue engineering studies in high school and beyond. We also 
offer local public school STEM educators and professional 
counselors the opportunity to take part in a 2-week paid 
internship to learn about shipbuilding and how the STEM 
concepts they teach are used in real workplace applications.
    We participate in industry events and nationwide diversity 
conferences. We recruit onsite during the conferences, and 
doing this has helped us diversify our workforce. But another 
way we recruit and attract and train our future shipbuilders 
and future leaders is through our world-class apprentice 
school. For 98 years, the school has been a great example of an 
alternative choice to traditional college experience and has 
provided tremendous results for both students and our company.
    Our apprentices are paid a salary and receive full benefits 
on day one, all while earning college credits and learning a 
trade in 19 shipbuilding disciplines and 8 advanced programs. 
Our graduates represent about 13 percent of our current 
workforce and more than 50 percent of our production management 
team. And although not obligated to stay with our company, more 
than 70 percent of our graduates are still with us after 15 
years of graduation.
    Apprentice graduates are found at all levels of the 
organization and all levels of management. Currently, I am one 
of three senior leaders in the company who are graduates of The 
Apprentice School. The school has grown in popularity and 
become extremely competitive. On average, we receive more than 
2,800 applications a year for 240 openings. We currently have 
750 students enrolled, and we believe these are our future 
leaders.
    In closing, these are just a few examples of how we are 
recruiting and retaining a skilled workforce capable of 
operating and keeping pace with today's rapidly evolving 
technologies. Training and professional development are not 
only vital for our success but are essential tactics in 
attracting and retaining millennial workers who demand ongoing 
learning and new opportunities.
    Thank you for the opportunity today, and I look forward to 
any questions you may have.
    [The statement of Mr. Hogan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Guthrie. Thank you for your testimony, as well.
    Ms. Hughes, you're now recognized for 5 minutes for your 
opening statement.

   STATEMENT OF STACEY JOHNSON HUGHES, STATE CHAIR, KENTUCKY 
   FEDERATION FOR ADVANCED MANUFACTURING EDUCATION (KYFAME), 
                     RUSSELLVILLE, KENTUCKY

    Ms. Hughes. Thank you, Chairman Guthrie, Ranking Member 
Davis, and all the members of the House Education and Workforce 
Subcommittee on Higher Education and Workforce Development. I 
am honored to have the opportunity to be here. My name is 
Stacey Hughes, and I currently serve as the State chairperson 
for Kentucky FAME, the Kentucky Federation for Advanced 
Manufacturing Education.
    In addition to Kentucky FAME, since 2008, I have had the 
honor of leading a team of HR professionals in the areas of 
employee relations, legal, benefits, medical wellness, and 
education and development as Logan Aluminum's HR manager. Logan 
Aluminum, located in Russellville, Kentucky, is one of the 
largest aluminum rolling mills in North America, if not the 
largest. It has grown to more than to four times its initial 
capacity and provides over 40 percent of North America's 
beverage can sheet production.
    Today, Logan Aluminum employs over 1,200 team members, 
produces 2 billion pounds per year, and is in the middle of a 
half a billion dollar expansion, which will add automotive 
capacity. Over the last 30 years, Logan Aluminum's education 
department has managed a successful maintenance apprentice 
program. This apprentice program has over 175 graduates, and 58 
percent of our current engineering and maintenance leadership 
are graduates of this program.
    In 2014, Logan Aluminum became a member of Kentucky FAME 
and soon transitioned our thriving program to FAME's advanced 
manufacturing technician earn-and-learn apprenticeship program. 
Logan Aluminum entrusted our existing program due to our belief 
in Kentucky FAME's vision and mission. So what is Kentucky 
FAME, and why would Logan Aluminum and over 200 Kentucky 
manufacturers join this effort? Kentucky FAME is an industry-
led public and private partnership dedicated to implementing 
world-class models for developing manufacturing talent. FAME's 
vision is to transform Kentucky's manufacturing workforce to 
ensure the economic success of our companies and our 
Commonwealth.
    Kentucky FAME is an active employer-led partnership that 
achieves its mission and vision through a variety of core 
functions. In 10 regional chapters, along with the education 
and economic development partners, FAME identifies critical 
needs skills in manufacturing, creates market-driven career 
paths, standardizes technical education curriculum and program 
delivery, provides meaningful work experience concurrent to a 
student's educational experience, markets and promotes 
manufacturing careers, and recruits manufacturing's next 
generation of employees through student sponsorship.
    Kentucky FAME is not a new organization. With the 
leadership of our founding member, Toyota Manufacturing, 
Kentucky FAME launched in 2009 with nine manufacturers in 
central Kentucky. This initial group collaborated with their 
local technical college to develop a new program to meet the 
growing need for multiskilled maintenance technicians. The 
Advanced Manufacturing Technician Program, known as AMT, is a 
2-year associate's degree that incorporates technical skills, 
personal behavior, soft skills, manufacturing core exercises, 
and work experience. Each AMT student attends class 2 days a 
week and then works in their sponsoring company for 3 days a 
week.
    Since 2009, FAME has grown exponentially. Today, over 225 
students have graduated from AMT and over 95 percent currently 
work full time with the employers that sponsor them. Most AMT 
graduates earn an average of $45,000 per year when they enter 
full time, and they have little to no student debt. AMT 
graduation rates exceed current trends with a graduation rate 
of 89 percent. This compares to 12.8 or 49.4 percent with other 
associate's and bachelor's degree programs respectively.
    In the fall semester of this year, 650 first- and second-
year students will be enrolled in Kentucky FAME-endorsed 
programs. As previously mentioned, employers' numbers have 
increased as well. We have 10 regional chapters. In addition to 
the AMT program, we endorse and sponsor students enrolled in 
other manufacturing career pathways, such as entry-level 
production, tool and die, as well as manufacturing-focused 
engineering and business bachelor's degree programs.
    Kentucky employers also invited almost 100 high school 
teachers into their facilities this summer for paid 
externships. Furthermore, other business sectors, such as 
healthcare, finance, and IT, have expressed interest in 
duplicating the FAME model to build apprenticeships in their 
trade. The success of Kentucky FAME has caused it to spread to 
other States, such as Texas, Missouri, Tennessee, Mississippi, 
and Alabama.
    FAME has received numerous awards and recognition from 
entities such as the National Career Pathways Network, the 
German American Chamber of Commerce, and the National 
Association of Manufacturing.
    In closing, the benefits of KYFAME to employers and 
educators and students are numerous. FAME helps companies 
develop curriculum programs to grow their current and future 
talent base. The partnership between employers and educators 
ensures a high standard of industry quality. Because of company 
collaboration, companies both large and small can participate. 
FAME's largest employer has over 9,000 employees, and its 
smallest has 25.
    Students earn technical, practical, and high-demand 
education that leads to a promising career with little to no 
student debt. Speaking on behalf of Kentucky FAME, I appreciate 
your committee's work on this important issue. A skilled and 
ready workforce is critical to the growth of my company, my 
State, and our Nation. Kentucky FAME believes we have created a 
proven apprenticeship model to increase the quality of our 
workforce, and I'm proud to share it with you today.
    Kentucky FAME supports the spirit of the Presidential 
executive order expanding apprenticeships in America and 
respectfully requests this subcommittee to introduce 
legislation to promote employer-led programs such as Kentucky 
FAME. I'm happy to answer any questions you may have. Thank 
you.
    [The statement of Ms. Hughes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Guthrie. Thank you for your testimony.
    We'll now move into a round of questions, and I will 
recognize Chairwoman Foxx for 5 minutes for the purpose of 
asking questions.
    Ms. Foxx. Thank you very much, Mr. Chairman.
    And I want to thank our witnesses for being here. This is a 
very hot topic all over the country these days, and I'm very 
pleased that we have invited you all to come in and speak.
    Mr. Bennett, I agree with your testimony that President 
Trump's executive order is an important first step toward 
increasing apprenticeship opportunities. Our workforce 
development programs are successful only if they can work at 
the speed of business, not the speed of government. Given the 
construction industry makes up the majority of registered 
apprenticeships, you're uniquely qualified to speak to the 
strengths and limitations of the current registration process, 
and you have done a pretty good job of explaining some of that. 
What changes should we consider if we want to increase business 
participation in the program?
    Mr. Bennett. Thank you. That's a great question. I think, 
to begin with, what you can do is make sure that business and 
industry is heard and represented on a regular basis. The 
industry, like you've heard here from the rest of the panel, is 
so dynamic and changing so quickly -- our society is changing 
so quickly with technologies and just the means and the method, 
so our ability to stay not only on top of but try to anticipate 
where it is going is very important. So keeping those open 
lines of communication are very important to how we progress 
forward.
    Ms. Foxx. Great. Because we have such a limited time, I'm 
going to ask you later if you would give us some other specific 
recommendations on the industry-recognized process, but I want 
to make sure I have a little time to ask some other questions, 
but we'll come back to that.
    Mr. Peglow, family is incredibly important, and I don't 
think we here in Washington talk enough about how important 
families are in inspiring people to improve themselves. In your 
testimony, you mentioned how getting engaged to your fiancee 
changed how you think about things. Why was getting engaged 
important to your decision to go back to school?
    Mr. Peglow. That's a great question. Thank you. When I 
graduated high school, I was by myself, and that's all I had to 
think about was myself, so I really didn't think about family 
out of college or what kind of career I needed to support 
myself in the future. And when I met my now wife, I had to 
think about things in a different aspect. It wasn't just 
myself; it was going to be me and her. Eventually, we're going 
to want to buy a house, start a family, so I had to think on a 
larger scale instead of just myself.
    Ms. Foxx. Thank you very much.
    Ms. Hughes, I have heard from a number of employers that 
they cannot rely on the certificate of completion from a 
registered apprenticeship program as a guarantee of program 
quality. Given Logan Aluminum's long success with its own 
apprenticeship program, what guarantee did you have that 
Kentucky FAME's program quality would meet Logan Aluminum's 
standards?
    Ms. Hughes. Well, first, because we had a very wonderful 
partnership with our local technical college and with Kentucky 
FAME chapters and Kentucky FAME itself, we actually sit down 
and go over the curriculum together to make sure that it fits 
our needs. So we were very pleased with that. It actually 
mirrored the program that we already had, except it was 
actually a better program because it was the cohort program 
where our students didn't have to go to several schools in 
Bowling Green. They are actually located at a campus in 
Franklin, Kentucky, and they are together. Just like Robbie 
said, they work together, and we found that to be very helpful 
to the program. So we were very pleased with the classes. We 
know they're taught by the same professors that we had used in 
our other program previously, and the classes fit our needs.
    And that's the great flexibility about Kentucky FAME, is 
that we do have that relationship and can sit down with the 
school and make changes if our technology changes or things 
need to be added to a class.
    Ms. Foxx. Thank you.
    Mr. Bennett, again, I will follow up with you on some very 
specific recommendations for the proposed industry-recognized 
process and ask for that later.
    And I did want to make one comment to Mr. Hogan. I'm 
running out of time, but I would like to follow up with you, 
too, because I was a little surprised at the very low 
percentage of people who are graduates of your registered 
apprenticeship program who are working in your own business or 
in the shipbuilding. So I would like to follow up on that with 
you because I would have thought that you would be hiring a 
larger percentage, but there probably is a good explanation for 
that, and I'll follow up with you on it.
    Thank you all again very much. It has been a wonderful 
hearing.
    Chairman Guthrie. Thank the gentlewoman for yielding back.
    I now recognize the ranking member of the full committee, 
Mr. Scott, 5 minutes for questions.
    Mr. Scott. Thank you.
    Mr. Hogan, did you want to respond to that? Because I 
thought it was just the opposite. You have a lot of people 
presently employed by the shipyard that went through The 
Apprentice School. Can you go through those numbers again?
    Mr. Hogan. Certainly, and that's why, in the follow-up, I 
was going to clarify what numbers the chairwoman might have 
been referring to. Today, we have -- we have just recently 
celebrated our 10,000th graduate from the apprentice program in 
those 98 years. We have over 3,000 of the apprentice graduates 
in the company today.
    As I said, about 45 to 50 percent of our production 
management workforce is apprentice graduate, so, at 20,000 
people, we have 750 on roll on any given year, and in 
graduating those, we're in the high 80 to 90 percent range up 
to 10 years after graduation that stay with the company.
    So our numbers of retention of apprentices are very high. 
Just a smaller subset of our total employment population.
    Mr. Scott. And one of the numbers I think was 1 out of 12. 
It is so popular; everybody want wants to get into it.
    Mr. Hogan. Yes. As I said, the application rate is about 
2,400, 2,500 applicants a year for the 240 slots that we have. 
And several years ago, when the economy had really taken a 
downturn, we were running in the 5- to 6,000 range of 
applicants, but we kept it at about the 250 a year entry.
    Mr. Scott. When someone graduates from The Apprentice 
School, what kind of credential do they get, and is that 
recognized in the industry?
    Mr. Hogan. It is a journeyman's certificate in whatever 
trade that they had served their apprenticeship in. For 
example, when I graduated from the apprentice program in 1980, 
I received a journeyman's certificate as a welder, and I could 
have stayed with the company, but I could have taken that 
certificate to most any industry and had it been recognized as 
a full-fledged journeyman in that trade, and that's still the 
same today.
    Mr. Scott. Thank you.
    Mr. Bennett, what's the difference between a registered 
program and an industry-recognized program?
    Mr. Bennett. Yes, in simple terms, a registered program 
governed by the Department of Labor is structured in terms of 
the amount of classroom time, as well as the on-the-job, earn-
as-you-learn work experience whereas an industry-recognized 
credential -- if I give an example of the National Center for 
Construction Education and Research, they're a provider of 
curriculum to the construction industry all across the world, 
and what happens is, in those programs, when you complete your 
accredited -- it's nationally recognized. And the value of that 
is, regardless of where you go in the country, you're in a 
national database; you can be brought up in that database. So, 
if you come from California to Maine, I can look at where you 
are in your program development. You may have completed it. It 
would tell me that. You may have partially completed it, and 
you could pick right up where you left off with us from your 
previous employer.
    Mr. Scott. If somebody wanted to start one of these, what 
would they have to go through?
    Mr. Bennett. To establish themselves, what they would do is 
work with the national center. You actually become -- you have 
to get your instructors certified. So there's a qualification 
process for getting your instructor certified to teach. You 
have to be an accredited center or work under an accredited 
center. It is very well governed in terms of its structure, 
policies, means, and methods that need to be followed, and then 
you begin teaching.
    Mr. Scott. Is that process more or less complicated than 
registration?
    Mr. Bennett. In my experience, it is less complicated.
    Mr. Scott. What do you have to do for registration?
    Mr. Bennett. For registration, you have to work with those 
individual States to get your programs approved, and this may 
not be a popular subject, but it is very political. We can -- 
just as a matter of fact, talked with a constituent of mine who 
tried to get their carpentry program approved. They were told 
you have to include framing and residential carpentry in your 
form building program, which are trades that they are skill 
sets within that trade that they're never going to use. So, 
unless they put those skill sets in, they would not be allowed 
to be registered.
    Mr. Scott. Mr. Hogan, is that your experience in the 
Virginia Manufacturers Association, complication in 
registration?
    Mr. Hogan. With the VMA, they have established with 
community colleges in the Commonwealth of Virginia a 
Manufacturing Skills Institute program, and that is tailored to 
multiple industries. It can cover something as wide, as 
specific as maintenance up to and including a machinist type 
program, and community colleges are equipped to offer the 
classes that are associated with that skills institute, perform 
the assessment, and then award varying levels of manufacturing 
skills certificates.
    Mr. Scott. Is the registration process more complicated or 
industry recognition process more complicated, in your view?
    Mr. Hogan. We are currently registered through the 
Department of Labor at Newport News for our apprentice program, 
and, you know, we have been accredited since 1982, registered 
since then, as well. We don't find it to be overly burdensome 
and complicated. Once our programs are registered, unless we 
make some substantive change to them, we don't have to 
reregister the programs. It is fairly easy to maintain 
registration.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Guthrie. Thank you. I thank the ranking member for 
yielding.
    And I'll now recognize myself for 5 minutes for purpose of 
questions.
    And, first, I'll make a couple of introductions to show, 
talking about Kentucky FAME, that it is in the highest levels 
of our Commonwealth and focus, is we have Leeann Veatch. She is 
here from the Governor's Office and shows our Governor's 
commitment to this.
    And, Mr. Peglow, I believe you referenced your wife, and 
she is sitting right behind you here supporting you here today. 
So I would like to welcome my constituent here as well today. I 
appreciate you being here.
    So I would like to ask you a question first, Mr. Peglow. 
You described how Kentucky FAME is structured so that you work 
3 days while going to school the other 2 days. This is in 
contrast to other types of programs you mentioned, as you said, 
where you would first have studied 2 years, earn a degree, 
before going into the field of study. Why do you think the 
combination of work and study in Kentucky FAME is valuable, and 
what unique things do you think you have learned by being able 
to do work and study at the same time?
    Mr. Peglow. I think going to work and school at the same 
time is very valuable because most programs that I have looked 
at other than this, you go to school 3 or 4 or 5 days a week 
full time. And most of the time, the job you do while you're in 
college is a part-time job other than what you're going to 
school for. This way, I get what I learn in school on Tuesday 
and Thursday; I can take to work Monday, Wednesday, and Friday, 
and apply it to everything that we do in work. And the 
companies and school has worked well together, and as we're 
learning stuff in school, we implement sessions and work to go 
along with the same things we're doing in school. So, if we do 
machining, then we're also doing machining at work to kind of 
balance those out and help our education, I guess.
    Chairman Guthrie. Well, thank you, that's very good. I 
toured a Kentucky FAME program in Owensboro and had similar 
sentiments from people who are working there and studying at 
the same time, so thanks.
    So, Ms. Hughes, throughout your testimony, you emphasize 
the importance of Kentucky FAME being employer- or industry-
led. What does this mean, and why do you think it is important?
    Ms. Hughes. Well, each chapter is directed by those 
employers that join it, and it is very important to them that 
they are active in the community and out recruiting in the 
community. But we as employers understand our needs better than 
anyone, and we can partner with the local school or community 
college to design the curriculum that we need. Obviously, 
manufacturers need to work together on this, instead of working 
separately, and working together, we have a larger voice within 
the community colleges to effect changes to the curriculum.
    Manufacturing in any business, technology is changing fast, 
and if we need to make a change or add something to a class, 
add a new section, we can have that sitdown with the community 
college and have that conversation. And that's not to criticize 
a community college or a technical school. They're just simply 
not in our businesses every day, and they don't know how 
quickly the technology changes, but we are aware of that.
    It also, like, as I said, gets the employer very involved 
in the community, whether that's out in recruiting -- I mean, 
we're going out to high schools, out to ACC schools, out in the 
community. We also recruit veterans coming out of the military. 
It gets us very involved in our communities in doing that. 
We're not only promoting the advanced technician program, but 
we are advancing manufacturing jobs in general, which is 
extremely important in our country. For so long, people think 
that manufacturing is dirty, dark, and dangerous, and that is 
simply not true in our manufacturers today, and we need to 
bring those young people and people back into manufacturing in 
our country.
    Chairman Guthrie. Well, thanks. And, also, in our area, a 
lot of people may not understand what -- the Bowling Green 
area, but it is just north of Nashville about an hour, which is 
-- Nashville is one of the boom cities of the country, and I-
65, so a lot of manufacturing is located in our area. Of 
course, Logan Aluminum has been there quite some time, but 
whenever I'm home touring it, and all of my area actually, the 
things you hear about, one, is access to skilled workers to 
come into work in the factory, which you are trying to address. 
But the other one is turnover. You hear that quite a bit from 
people in turnover. And I know that Logan Aluminum -- how is 
Logan Aluminum's apprenticeship program and being part of being 
Kentucky FAME helped you dealing with the turnover that so many 
other companies have to deal with?
    Ms. Hughes. Well, we have had very low turnover in our 
apprenticeship program over the last 30 years. It has been less 
than 6 percent, after they leave the program, they have stayed 
with our company. And one of the reasons for that, frankly, is 
Logan's culture. We have a very different culture from a lot of 
manufacturers. We have self-directed work teams, and that 
causes a very low turnover because we offer -- they have a 
voice very much so in our business. We live by principles and 
things like that. So that's very unique to Logan Aluminum. And, 
historically, we have very low turnover for a manufacturer 
anyway.
    But the investment that we are making in the individuals 
that go through Kentucky FAME's program is very high because 
our program is not just the 18 months they're in the program in 
school; they spend another year out on the floor as an 
apprentice before. And we pay for all of their education, and 
we also pay a very good salary while they're in the program to 
support them and their families. And we are investing about 
$200,000 per apprentice through that program. They recognize 
that. They know that we want them to have a career. This is not 
just a job for them. It is a career. And also a lot --
    Chairman Guthrie. My time is kind of expiring. So I 
appreciate the answer. Just to be fair to the other questioners 
-- but thank you for your answer.
    I will now recognize the Ranking Member Davis for 5 minutes 
for her.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you all so 
much for being here. We greatly appreciate it.
    And I think, you know, we're trying to make some contrasts 
here, and in some ways, I'm not sure that contrast is 
necessarily there, but for clarification, Mr. Hogan, do you 
feel as if the apprenticeship school is industry-led?
    Mr. Hogan. It is. It is led by our current company as part 
of what has been a shrinking industry. The maritime industry 
has shrunk greatly in the United States in the 40 years that I 
have been in the business. You consider that there's not really 
any major, if any, commercial shipbuilding going on in the 
United States today. We are -- we used to be part of what was 
called one of the Big 6 yards, and now it is really down to two 
entities. General Dynamics has their three yards. Newport News 
has our three yards. And then there's, you know, a smattering 
of smaller yards through the Gulf Coast in the Florida 
panhandle area. And we are an industry leader in shipbuilding. 
So, in many ways, you could say that it is industry-led.
    I'm very proud to say Huntington Ingalls, with our 
Pascagoula, Mississippi, facility, has the Haley Barbour 
Maritime Institute, which exists there, and they have done -- 
as we have been part of the same organization -- modeled some 
of their apprentice program after ours. Speaking with 
Representative Courtney earlier, and General Dynamics electric 
boat is reconstituting their apprentice program as part of the 
ramp-up that we see in defense and shipbuilding in this Nation.
    So, you know, it is kind of an either/or. You can say we're 
company-led or you can say we're industry-led because it is a 
much smaller industry than perhaps automotive, food, other 
manufacturing industries in the United States. Does that answer 
your question?
    Mrs. Davis. I think so. You know, if I were a parent and I 
was with my son or daughter -- and you do a very good job 
recruiting women, which I think is admirable, and certainly we 
want to make sure that continues to grow -- and I'm trying to 
figure out, you know, the differences here, and as I understand 
it, there are many registered apprenticeship programs that then 
allow someone to qualify for an industry recognition 
certification. So is there -- you know, the cart before the 
horse. How does that work?
    Mr. Hogan. Well, certainly, an apprentice from another 
company or even industry would have some recognition in our 
company, but they would not hold the same certification that a 
Newport News Apprentice School graduate would have. We have a 
very strict curriculum. It is a mix of both -- we like to call 
it the three pillars are craftsmanship, scholarship, and 
leadership. It is modeled very much after the Naval Academy's 
approach. So, and I think Mr. Peglow, you know, hit it on the 
mark when he talked about it is the right mix of scholastic 
work along with your craft work at the same time, and then we 
add in the leadership component to it whereas others, even 
where they're industry-led, whether they're not registered, 
they're often focused more just on the craft portion of it. And 
there's nothing wrong with that. We just find it being the 
combination of those three that we have in place to really help 
create the leaders of the future in shipbuilding for Newport 
News.
    Mrs. Davis. Is it your understanding then that the fact 
that -- where does the added value come from? You mentioned the 
leadership, which I think is critically important but may not 
be something that industry cares about. But is it the 
registration part of the program that gives that added value?
    Mr. Hogan. The registration part is flexible enough where 
it allows us to focus on those three components of it. It 
doesn't restrict us to one. It does allow an industry point of 
view that we're able to put into our programs, and we have 
found it to be, as our president -- previous president and 
current president -- has termed it kind of our secret sauce at 
Newport News in the right makeup of those three aspects of it, 
and we have just found the right balance of that to create both 
future craftsmen for the company but also future leaders.
    Mrs. Davis. I wonder, maybe -- thank you, Mr. Hogan -- 
because our time is limited, but, Mr. Bennett or Ms. Hughes, do 
you want to comment? I mean, is there something about that 
people might inquire of Kentucky FAME and say, you know, it 
sounds like you're doing a lot of those same things, but you 
seem to want very much to want a distinction between the 
programs? Did I understand that right or --
    Ms. Hughes. I don't know that we make a definite 
distinction. The Kentucky FAME AMT technician is not a 
registered program. However, we do have member companies who do 
have registered programs, as well. The reason that I think 
Kentucky FAME is so unique is that it has flexibility for 
employers of all sizes. Mr. Hogan comes from a very large 
employer, and in Kentucky, I come from a larger employer, but 
an employer that has less than 100 employees, which many 
manufacturers do, I think this is an option for them because 
they can come and have a -- sponsor a student, maybe one 
student every other year, and still be a member of a chapter, 
and they do not -- they won't have the resources at their 
facility possibly to do a registered program with the 
application process and so forth. But the Kentucky FAME program 
offers them a very standardized program that the student comes 
out with an associate's degree and then is mentored at their 
facility specific to their needs at that facility.
    So I think that's the distinction there because of the 
flexibility, but we do have member companies, such as some of 
the ones in Louisville, Ford, and I believe there's a couple of 
others who do have registered apprenticeship programs as well 
as being a member of the Kentucky FAME.
    Mrs. Davis. Thank you.
    Chairman Guthrie. Thank you.
    Thank you for yielding.
    And I now recognize Mr. Byrne 5 minutes for questions.
    Mr. Byrne. Thank you, Mr. Chairman.
    When I was the chancellor of the postsecondary system in 
Alabama, I was also the chair of the Workforce Planning 
Council. So I got to deal with a variety of training programs. 
And I was real proud of the FAME programs we had in the 2-year 
college system, but we frequently had a hard time getting 
enough students to participate in our construction trades, that 
really didn't work in the sort of academic environment of a 2-
year college, even a technical college.
    So apprenticeship programs seemed to work particularly well 
in the construction trades. That's where we could attract 
people because they could work while they're getting their 
training. That seemed to work pretty well. So I welcome the 
President's executive order. I think it is great. But there's 
that provision in section 4 that says that the Secretary can 
exclude an industry if it already has an effective and 
substantially widespread program. Well, if you excluded the 
construction industry, I'm afraid we would exclude an industry 
that almost by its nature has to depend upon apprenticeship 
programs to get their students and to get the training.
    So, Mr. Bennett, I would like to ask you to respond to 
that, if you could.
    Mr. Bennett. Yeah, we have reviewed that executive order, 
and, you know, our sentiments are I think it is very premature 
at this stage to exclude anything, given the demand that we 
face today: 500,000 skilled worker shortage. The infrastructure 
bill that, should that pass, could go anywhere from another 4- 
to 600,000 that they're predicting by 2020. The apprenticeship 
model in its current state will not get us there, and I think 
what's misunderstood sometimes is when we hear that term 
``apprenticeship,'' it is not a siloed approach.
    The construction industry has been training and developing 
a workforce since its infancy, and it hasn't just been through 
registered apprenticeship, and that understanding is -- I don't 
think is very well understood in the country, and our company, 
we provide both. We have registered apprenticeship programs 
that meet State licensing requirements, but more so, we have 
industry-recognized development that is going on for our 
workforce, and it is significant to our success.
    And the distinction between those two is the industry-
recognized programs are much more nimble. It allows us to adapt 
quickly to the needs of our clients, and we're not interested 
in sacrificing rigor, relevance, or safety. We can't afford to. 
This industry today is too dynamic and too sophisticated for us 
to cut corners, so we're not looking for less as we look to 
compress, right, that developmental efforts. And so when we're 
looking at this executive order, I think it is very premature 
to exclude anything right now. I think we need to look at what 
is working, how do we enhance those models, and how can we 
expand upon what else is going on in the industry, because, my 
opinion, that by itself is not going to allow us to get to that 
500- or a million number.
    Mr. Byrne. Well, I'm really glad you brought up the 
infrastructure program. Because I was talking to the Secretary 
of Transportation the other day, talking about her sort of 
vision for that. I know the President's vision for that. It's 
ambitious. And I want it to be ambitious. I think it's good for 
the country.
    But I told her, I said, I'm worried about finding the 
workforce to build all that infrastructure. We lost a lot of 
that workforce during the recession. I'm telling you what you 
already know. And you can't just rebuild that workforce 
overnight. We've got to attract people into the programs and 
get them, you know, into the apprenticeship programs.
    So I hear what you're saying is, look, not just for the 
health of our industry, but if we're really going to be serious 
about a major infrastructure program for America, we have to 
think about all sorts of different ways of creating that 
workforce to build up to what it would take to do that.
    Ms. Hughes, I want to ask you a question. Registered and 
unregistered, to the average person out there, what's the 
difference? So in plain, layman terms, so even somebody like me 
can understand it, what's the difference, what's the 
substantive difference between the two?
    Ms. Hughes. I have been in HR since 1999, and I can tell 
you, I've reviewed many applications. And I would view them, if 
someone has a registered apprenticeship, a journeyman, or 
someone who has an associate's degree in industrial 
maintenance, I would look at them the same. Because I think 
that having that education and then the job experience that 
goes along with it has to be important.
    So I don't see that there's much distinction. Obviously, I 
know legally a registered apprenticeship has to be registered 
with the Department of Labor. I understand that.
    But there are many people that are in hiring positions in 
industry, certainly in the Commonwealth of Kentucky, who don't 
necessarily recognize -- not necessarily recognize, but don't 
see a distinction. They're looking at whether that person can 
do the job, whether they have the job experience.
    That associate's degree would be helpful. But also, if 
someone doesn't have that, if they've got 30 years' experience 
in maintenance or welding, whatever it might be, we're going to 
hire that person without a certificate or not.
    Mr. Byrne. Thank you.
    My time is up. I yield back.
    Chairman Guthrie. I thank the gentleman for yielding back.
    And I now recognize Mr. Courtney for 5 minutes for 
questions.
    Mr. Courtney. Thank you, Mr. Chairman, for holding this 
hearing, and to the witnesses for really interesting testimony.
    Again, I particularly enjoy this topic because we're 
talking about the Registered Apprenticeship Program, which is 
also known as the Fitzgerald Act. And Fitzgerald actually was 
the Congressman from the Second Congressional District of 
Connecticut back in 1937, 80 years ago, when it was passed into 
law and signed into law by President Roosevelt.
    I actually asked the House Historian to pull up a picture 
of Congressman Fitzgerald. He's the good looking Irish guy on 
the left over there and a really interesting Member.
    He actually was a foundry worker, Mr. Peglow, who worked 
his way up through a company, Richmond Radiator, in eastern 
Connecticut, became a superintendent of the company, worked for 
the State Department of Labor setting up apprenticeship 
programs in the 1930s, during the Depression, and then was 
elected to Congress in 1936.
    Passed this law in his first term in office, which is not 
bad, to have, again, an act named after you and have on the 
books for the last 80 years. Left Congress after serving only 
two terms and became the head of the War Production Board in 
Connecticut during World War II. Electric Boat built 74 
submarines during World War II. And I know your shipyard in 
Virginia did the same. And it's interesting because a 
registered apprenticeship program was folded into the War 
Production Board.
    So the notion that we can't scale up the Registered 
Apprenticeship Program for a large undertaking -- which, again, 
whether it's infrastructure or shipbuilding -- I mean, the fact 
of the matter is that, you know, Mr. Fitzgerald showed you can 
do it and you can do it with high-quality apprenticeship 
programs with real standards.
    Again, we built a 5,000-ship Navy in World War II, which is 
staggering when you really look at we have a 272-ship Navy 
today. So really it's a question of just how do we look at 
this, with the benefit of hindsight to some degree. And I think 
a big part of it is just, again, make sure that we think big 
and we also recognize this is also about resources.
    Again, we have another slide which, again, lays out what 
we're doing budget-wise in terms of apprenticeship programs. In 
the fiscal year 2017 budget, which was a bipartisan budget that 
we just passed, $95 million, the Apprenticeship Accelerated 
Grant Program, which, again, companies in my district and other 
parts of the country are taking advantage of, which provides, 
again, about 3500 per employee to entice businesses to join the 
apprenticeship program.
    Unfortunately, as was mentioned by Mrs. Davis, it was 
zeroed out a couple weeks ago in the Labor-H appropriations 
bill, which is really kind of totally at odds with the 
executive order which was just issued.
    We also saw the WIOA grants, the Workforce Investment 
Opportunity Act grants, cut. Again, that was a bipartisan bill, 
the Workforce Investment Opportunity Act that was signed into 
law in 2014.
    Again, that's going in the exact opposite direction of the 
topic that we're talking about here today. The fact of the 
matter is we want to encourage and entice employers to 
participate in these programs, and taking these resources away 
is just sort of going in the opposite direction.
    So, Mr. Hogan, again, up at EB what we're seeing with the 
ramp-up of submarine construction is we're getting a lot of 
small suppliers who are also having to ramp up, because that's 
going to be a big part of the model in terms of getting there. 
And is it your experience that some of these suppliers in 
Virginia are also really looking to apprenticeship programs to 
meet the demand?
    Mr. Hogan. Yes, sir. I have seen that both with my work 
with the VMA and as a previous position I held at Newport News 
supply chain management head. We see the same thing across the 
industrial base.
    And we're dealing with manufacturers who aren't just solely 
shipbuilding, maritime-related suppliers. They supply on the 
commercial market, the construction industry, a wide variety of 
areas that they supply to, and across the Commonwealth of 
Virginia.
    And I've seen it, because we have suppliers, basically, in 
50 States across the Nation, very similar situations. And many 
of them at all scales of size of the companies are looking for 
programs that currently exist that they can participate in. If 
not, what does it take to do it in their company?
    And, oftentimes they don't have the same benefits that I do 
in a large company and the training and infrastructure we have 
in place to do those. So many companies are struggling today to 
find a model and funding associated with it.
    Mr. Courtney. Thank you.
    So, Mr. Chairman, I just want to enter a letter from 
Collins and Jewell Company in eastern Connecticut, who is one 
of those suppliers. I'm just going to read two sentences real 
quick.
    ``We, at first, were very reluctant to get enrolled into 
the apprenticeship program as we were under the misconception 
that apprenticeships was a very difficult process for small 
employers. We as small employers typically connect 
apprenticeships to unions or very large employers. We were 
surprisingly relieved that the process was not nearly as 
daunting as imagined.''
    And I think that's something that will continue to 
reverberate out there if we get those incentives in place.
    With that, I would ask that it be entered for the record.
    Chairman Guthrie. Thank you. Without objection, so ordered.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Courtney. Thank you. I yield back.
    Chairman Guthrie. Thank the gentleman for yielding back.
    I now recognize Ms. Stefanik 5 minutes for the purpose of 
asking questions.
    Ms. Stefanik. Thank you, Mr. Chairman.
    Mr. Peglow, thank you for your excellent testimony today. 
You talked about your experience in school, and you graduated 
in 2014. Is that correct?
    Mr. Peglow. Yes, ma'am.
    Ms. Stefanik. I'm curious whether you felt you had adequate 
opportunities when you were in high school, before you moved on 
to college, to have vocational education and internship 
opportunities.
    Mr. Peglow. Yes, I did. We had a welding program at our 
school. Welding and masonry were the two major parts of it.
    Then, in high school, I wasn't really focused on what I 
wanted to do afterwards, and I didn't have an interest in 
manufacturing or the welding programs. In high school, I was 
actually headed down the path of culinary chef and totally 
changed when I got out of high school.
    But speaking of Franklin Simpson High School, we had ample 
opportunities to do different career paths. And I know Logan 
High School and a couple other county high schools have more 
advanced programs. But most all the schools in the area have 
very well programs.
    Ms. Stefanik. So do you think, in retrospect, connecting 
those programs to workforce opportunities after graduation 
would have helped you sort of develop the path and see a bit 
into the future?
    Mr. Peglow. Yeah. I believe they would have helped a little 
bit.
    Ms. Stefanik. The reason why I ask that question is we have 
some great high school workforce development programs in my 
district through BOCES, and they partner with local employers 
so that there's a direct pipeline from students at the high 
school level who are learning these technical skills and 
immediately will have employment opportunities so they can see 
what they're learning in the classroom, in a hands-on way, how 
that actually translates to jobs. So I just wanted to get your 
experience. But thank you for your testimony.
    Mr. Bennett, I wanted to ask you a few questions. In your 
testimony you noted that the construction industry makes up the 
largest segment of registered apprenticeships. Industry-wide, 
could you share what percentage of construction industry 
apprenticeships are registered versus not registered?
    Mr. Bennett. I would have to follow up with you on what 
that exact number is. I don't want to misquote statistics for 
you this morning.
    Ms. Stefanik. Okay. I look forward to that follow-up. But 
there definitely is a mixture between registered and 
unregistered. Is that correct?
    Mr. Bennett. Yes.
    Ms. Stefanik. Could you describe some different types of 
the industry-recognized programs?
    Mr. Bennett. Sure. I can give you an example of welding 
personally from our own company. We produced the largest oil 
refinery expansion in this country in 40 years. And when we 
went into that project, we needed 250 pipe welders.
    And what you need to understand in the construction world 
is jobs take a long time to develop. They don't just happen. It 
takes time to evolve. And so you don't just have a bench full 
of people waiting to go to work. You have people that are 
working and those resources are being deployed in other areas.
    So when this job came up, 250 welders needed, we needed to 
look at how we were going to staff that project. We had 
internal resources, but we also knew we were going to have to 
recruit and develop these individuals.
    And we worked with external professionals to understand, 
how could we go about this? And we were told the traditional 
model of pipe welding is you become a structural welder, you 
need to apply those skills, you come back in, and you begin to 
learn pipe. And we didn't have that kind of time on our hands.
    And we developed 250 pipe welders in 12 weeks, in a 
competency-based program that is industry recognized, both 
certifications, the weld certifications that they possess. And 
we successfully built that job, on time, under budget, against 
two other contractors in the country, and we outperformed both 
of those contractors.
    And of our welding metrics as we watched the cyclicalness 
of jobs can come and go in terms of your workforce needs, and 
one of the first downturns on the project, which is driven by 
many things, material, engineering, the first thought would be, 
well, you're going to let your new folks go first and keep your 
veterans. Of the top 15 welders on that project, 14 of them 
were graduates out of that program who had never welded before.
    So the model can work. And when we look at the 
distinctions, it's not that registered apprenticeship doesn't 
work and that it's overly burdened. It's there. It's been very 
effective for many, many years. But there's also this model of 
industry-recognized programs that also works. And it's highly 
effective. And, again, it contains rigor and relevance and 
safety. And that's what's important for me to get across today, 
is both models can work and the country needs both models.
    Ms. Stefanik. Thank you. I think that's an incredibly 
important point. And that anecdote highlighted the 
effectiveness and the efficiency of the program that is 
recognized at the industry level.
    My time has expired, but thank you to the panel. It was 
excellent testimony across the board today.
    Chairman Guthrie. Thank you for yielding back.
    I now recognize Ms. Adams for 5 minutes for questions.
    Ms. Adams. Thank you, Mr. Chairman and Ranking Member, 
thank you for holding this meeting.
    And to all of you, thank you for your testimony. It has 
been very inspiring. And as a former educator, certainly it's 
something that I have a personal interest in.
    Everyone knows that the benefits of apprenticeships are 
really good. They provide our workforce with the skills that 
they need to undertake the jobs of the future. They put our 
workers in a position to enter the middle class with stable, 
good-paying jobs. And they bring the potential for advancement, 
and they can provide an alternative path to obtaining a 4-year 
college degree for young adults who can't take on the burden of 
student debt, which is really a serious problem.
    Mr. Bennett, let me ask you first, you challenged the 
Registered Apprenticeship Program as being too rigid, too 
focused on a time component. It's my understanding that under 
current rules registered apprenticeships can be time based, 
competency based, or a mixture of both.
    In the college context, we've seen what happens when we 
give Federal resources to low-quality schools that provide no 
value to students. So are you concerned that opening up Federal 
resources to entities with much lower quality and safety 
priorities than Cianbro may lead to supporting apprenticeship 
programs that don't help participants or harm the reputation of 
apprenticeship programs?
    Mr. Bennett. That's a great question. The answer to that, 
no. From our organization and association, we have absolutely 
no interest -- and you've heard me say this morning -- in less 
rigor, less relevance, or less safety focus. We cannot afford 
to.
    Our clients today demand that you're able to put their work 
in place safely. In fact, they set standards on if your 
recordable incident rate isn't at a certainly level, you're not 
even allowed to bid on those projects.
    And so not only morally is it just our responsibility to 
ensure a safe workplace for our team members, and their loved 
ones certainly deserve to know that when that loved one leaves 
home and goes to work that they're going to work someplace that 
is safe. That is our moral obligation. So when we look at 
compressing the development efforts of our workforce, 
absolutely, we do not want or expect that rigor, relevance, or 
focus on safety should be watered down in any manner or 
fashion.
    Ms. Adams. So when you say an all-of-the-above approach, 
what do you mean?
    Mr. Bennett. Well, an all-of-the-above approach, what we 
mean by that is let's not just focus on developing or attacking 
the skill shortage in this country with simply registered 
apprenticeship programs. There are multiple pathways just like 
we have in our educational system for students. You can go the 
traditional high school model. You can enter career and 
technical education. There should be multiple pathways, just 
like we have for our students, for folks that want to develop 
these professional trade skills.
    Ms. Adams. All right. Thank you very much. Let me move on.
    In the 12th District of North Carolina, Siemens has seen 
remarkable success with their apprenticeship model, partnering 
with Central Piedmont Community College to sponsor high tech 
and European-style apprenticeships, manufacturing gas and steam 
turbines for power plants.
    Mr. Hogan, I was interested to read about your experiences 
with the apprentice school. You have a fine record of preparing 
students for the jobs for tomorrow. And you mentioned the 
schools' partnership with local community colleges. Could you 
elaborate on how Newport News Shipbuilding engages students in 
these institutions as well as K-12 students who are looking at 
community colleges as an option?
    Mr. Hogan. Yes, ma'am. We actually have two models from a 
workforce development perspective. One is through the 
apprentice program. And the majority of our scholastic portion, 
academic portion of the program, is taught by onsite 
instructors employed by the apprentice school.
    I think somebody asked me one time, what about dual 
enrollment classes? If somebody took a high school class, dual 
enrollment with a local community college, we would take a look 
at that relative to their transcripts and requirements in the 
apprentice school, and we may waive the requirement for them to 
take one of those classes if it was dual enrollment.
    Most of our association with the community colleges is 
through our normal workforce development for the remainder of 
our employees in the company, which is the larger population. 
And we use a variety of things: tuition reimbursement, where a 
person can go to school on their own time and the company is 
willing to pay for them to get something that is applicable to 
their work in the shipyard.
    As well, we have established specific programs with 
community colleges to focus on workforce development for 
Newport News. In fact, years ago I participated in a program 
myself and received a 1-year industrial management certificate 
from the local community college in my very early stages of my 
career.
    Today we utilize them in what's called an hourly leadership 
development program. So our union-eligible represented 
workforce can go use a community college with the classes paid 
for by the company to equip them for those both academic and 
leadership classes.
    Ms. Adams. Wonderful. Thank you very much.
    I'm out of time. Mr. Chair, I yield back.
    Chairman Guthrie. Thank you for yielding. I thank the 
gentlelady for yielding.
    And I now recognize Mr. Smucker for 5 minutes for 
questions.
    Mr. Smucker. Thank you, Mr. Chairman.
    I very much am pleased that the chairman has chosen to 
conduct the hearing on this particular topic, I'm pleased that 
it's a priority of this committee, because I think there's so 
much potential for us.
    And, Mr. Peglow, thank you for being here. It's a wonderful 
story, shared by so many, myself as well. So I would be what 
you consider a nontraditional student. I did construction at 
night, hanging drywall to earn my way through high school, 
actually, and then after that operated a business and went to 
college at night.
    So the idea of earn while you learn is something that I 
experienced. And the construction company I owned, we had about 
150 employees. And so I have a very special affinity for those 
who choose construction as their career. And I'm also fully 
aware of the many wonderful opportunities there are in the 
construction trades.
    But our problem always was, always, the number one thing 
that hindered our growth was finding qualified people to fill 
the spots that we had available for those great family-
sustaining jobs.
    And so I just think apprenticeship is a model that begins 
to solve not only the issues of finding people for jobs, but 
provides so many great opportunities for people all across the 
country and gets to other problems that we talk about as well, 
like college debt and many other things. And so we'd never 
discourage a 4-year degree for anyone, but we just want people 
to understand there are so many other opportunities available. 
We want to work for those.
    You know, I hear the discussion and specifically some of 
the comments made by the ranking member that I agree with so 
much, that we all want a program that is prestigious, a program 
that means something, when you come through that program, you 
have some certificate, you have some certification at the end 
that you can hang on to and know that you've achieved 
something.
    And that's important not only for the student, but it's 
important for parents. And I think the ranking member mentioned 
that it needs to be a program of value. So we must have high-
quality programs.
    And it's interesting to me, I hear all the discussion about 
registration. There's a lot of discussion about that. To me, 
that feels -- we agree on so much of this, there really isn't 
much contrast. That registration, to me, is like talking about 
building a building and you're arguing about the color of the 
doorknobs. I mean, literally.
    What we want is programs that are quality. We want a 
certification at the end of that product. And, unfortunately, 
what happens with registration is some people who currently 
have registered programs have put a lock on that doorknob and 
have kept other companies, they've used it as a barrier to 
entry to training employees.
    That's the problem we have with registration. If we can 
come up with a system that you can readily get approval for, I 
don't think anybody would argue with registration.
    So I think there are a lot of ways it could be done as 
well. We just want to ensure that there's a strong system in 
place. Whether it's done the way we currently do it or whether 
it's done through industry certification, you have to have a 
strong system of recognizing and holding accountable to ensure 
that we have quality programs.
    One of the models -- and maybe, Ms. Hughes, I'm really 
fascinated by what you've done by Kentucky FAME, and I 
appreciate the chairman sharing this model with us. It seems 
outstanding.
    But could we look to other areas of higher education as 
some model? You have a lot of different institutions. They're 
accredited in different ways. Is there anything we can learn 
from that in how we register our programs?
    Ms. Hughes. Yes, I think we can. I think that looking to 
what the community colleges are presently teaching and so they 
understand what the industry needs and are those classes up to 
date. I think it's a partnership between those two groups, 
whether that's a banking business, whether that's culinary, 
because our local schools teach that, making sure that they are 
up to date and teaching those things.
    The one thing that's wonderful about Kentucky FAME is that 
it adds that personal behavior, soft skills piece to that, as 
well as the safety, the manufacturing core classes, such as 
workforce organization, that type of thing. So I think that's 
important.
    Looking at other colleges and universities, as well, for 
co-op programs and internship --
    Mr. Smucker. I'm going to jump in. And I'm sorry, I talked 
too much. I have a lot of additional questions. But one thing I 
really like about what you're describing at Kentucky FAME is 
how businesses are engaged.
    Ms. Hughes. Very engaged.
    Mr. Smucker. And it's an aspect of the apprenticeship 
program that I think holds so much promise. It's a way for 
businesses to really engage in not only hiring employees, but 
in the development of those employees. And it's a model for 
them to do that.
    So I wish I had more time. But I look forward to speaking 
with all of you to learn more about your programs.
    Chairman Guthrie. I thank the gentleman for yielding.
    And I now recognize Mr. Krishnamoorthi for 5 minutes.
    Mr. Krishnamoorthi. Thank you, Mr. Chairman, and I really 
applaud you calling this hearing today with the ranking member. 
It's definitely a topic that both sides of the aisle are very 
interested in, and I think we can really work together to 
strengthen your ability to offer apprenticeships.
    And thank you, Mr. Peglow, for coming in and talking about 
the real world impact of apprenticeships, because I think more 
people need to hear from people like you, quite frankly.
    My first question is, recently the House passed a 
bipartisan reauthorization of the Perkins Career and Technical 
Education Act. It was not only bipartisan, it was unanimous 
through the House of Representatives. I was proud to be the co-
lead for that legislation, along with my colleague, Republican 
Congressman Thompson from Pennsylvania. And one of the 
improvements that bill made was to align CTE programs with 
workforce needs and support work-based learning opportunities 
which may, of course, include apprenticeships.
    So my first question is to Mr. Hogan. You know, as a member 
of the business community, sir, what do you find to be among 
the most meaningful ways to engage with the community's local 
CTE programs? In other words, do you actively work with the 
local community colleges in trying to fashion their curriculum 
to suit your needs? And how can the Federal Government help in 
those efforts?
    Mr. Hogan. Certainly. What I would say is in addition our 
world class apprentice program that I talked about, the rest of 
our training for the remainder of the workforce is handled 
through a special department or division that takes care of all 
the trades-related training.
    That group, as well, is connected with what we call our 
Career Pathways Program, which then is linked to both our 
community colleges and our local high schools, all the way K-
12, is how we're linked up there. Because what we recognize is, 
is that is a feeder to the workforce of the future. Not 
everyone will get into the apprentice program, but that doesn't 
discount them as potential highly skilled first-class 
shipbuilders for Newport News.
    So our linkage to CTE is through a special program that we 
have called Career Pathways.
    Mr. Krishnamoorthi. Thank you. I appreciate that.
    I wanted to highlight one program in my own State which is 
basically based at a company called Aon, one of the world's 
largest insurance companies. And basically what they did is 
they created an apprenticeship program in insurance and risk 
management, one in information technology, and one in human 
resources.
    And these apprentices get paid competitive salaries. 
They're offered full employee benefits. They get on-the-job 
training. And they get paid tuition at partner schools to get 
an associate's degree as well.
    In addition, they get a labor-certified insurance 
apprenticeship, both of which are transferable outside of Aon.
    And so one question I wanted to ask Mr. Bennett, with 
regard to these registered apprenticeships I think that part of 
the argument for having them is that they ensure a certain 
level of quality across the board. And so we can ensure that 
our children and students and others who are perhaps in career 
transition, who engage in these apprenticeships, are able to 
get something that really can transfer around the country, 
because everybody can trust in it.
    So I'd like to ask you, like, what do you see as potential 
benefits of having a registered apprenticeship, setting aside 
for a moment your concerns about the actual registration 
process? But do you agree that having a registered 
apprenticeship is a good thing nationally?
    Mr. Bennett. I mean as a company, as I stated, we provide 
both. There's value to both. But there's a reason why we offer 
both.
    And so the registered program, the way they're structured 
with classroom time and on-the-job learning, is very valuable. 
And our nonregistered programs are set up very similarly, but 
they also lead to having credentialing, because, as I said, 
we're not interested in having something with less rigor, 
relevance, or safety focus.
    So there is a credentialing process. In fact, it's as 
strict, if not more strict than an apprenticeship model, where 
there's a knowledge verification, a written test of 
understanding the technical knowledge. But there's also a 
performance verification where you have to demonstrate that 
competency before you're issued that certification.
    So it provides that same level of comfort for our students 
that, as they're progressing, we know that they've not only 
mastered or understand the technical aspect of it, but they 
also know how to apply the learning.
    And so there's value for us in both of those. So I don't 
want to be misunderstood this morning that I'm pitting one 
against the other. That is not my position or the association's 
position. But it is simply there is more than one way to get to 
the end.
    And it's that recognition of these nonregistered programs 
that we have to do a better job at educating our lawmakers on 
and the industry on, because it's very valuable and it's been 
very successful.
    And we work with the technical high schools, a significant 
number of them, not only to help purchase curriculum books, but 
we sit on their advisory councils, we help develop the 
curriculum, we provide internships, paid internships, to put 
our money where our mouth is.
    It's important. That is our future. And, again, we can't 
afford less rigor, less relevance, or any less focus on safety.
    Mr. Smucker. [Presiding.] Thank you.
    Mr. Krishnamoorthi. Thank you.
    Mr. Smucker. Thank you.
    I would now like to recognize Mr. Grothman for 5 minutes of 
questioning.
    Mr. Grothman. Thanks much.
    We'll start with Mr. Bennett, and we'll finish with Mr. 
Bennett too.
    I want to talk a little bit about the apprenticeship 
program and the percentages, apprentice versus journeyman. 
There are restrictions in the number of apprentices you can 
hire per journeyman. Can you give me some examples of a job 
where it would be appropriate to hire more apprentices than 
right now for a journeyman?
    Mr. Bennett. Sure. So maybe to kind of help set the stage.
    Mr. Grothman. Maybe explain the rule a little bit.
    Mr. Bennett. A ratio may be you can have one apprentice or 
helper to one journey-level tradesperson. There are situations 
with many trades where that might be understated in terms of 
the conditions of the work, the hazards associated with the 
work. There are opportunities where a journey-level individual 
could oversee, very safely, more than one individual.
    In the same token, I can give you examples of where it is 
absolutely the correct thing to do to have a one-to-one ratio 
given the hazards associated with the work that needs to be 
performed. But there are many cases where you could have more.
    So what that does to us, the restriction that puts on us, 
is we can only develop so many based on how many journey-level 
craftspeople we employ.
    Mr. Grothman. You think sometimes you should be able to 
hire three apprentices for every two journeymen?
    Mr. Bennett. I think there are situations where you 
absolutely could do that, yes.
    Mr. Grothman. Okay. Are there enough people out there that 
if you could hire more, you would? I mean, I guess I can think 
in my own mind there are two reasons why we don't have enough 
people in trade. You can say just not enough people are going 
in. But you could also say, from what you're telling me, that 
if you could, on individual jobs, hire another couple 
apprentices, maybe you could get people through the program 
quicker.
    Could you comment, do you believe we could get more people 
through the program if you could sometimes hire more 
apprentices?
    Mr. Bennett. I believe you could. And that's one of the 
distinctions between what are the restrictions in a registered 
apprenticeship program? That would be one of them. Compared to 
or contrast that with a nonregistered program, we don't have to 
have that ratio.
    Mr. Grothman. Okay. In your testimony, you referred to 
unnecessary requirements of registered apprenticeship programs 
that sometimes waste taxpayer money. Could you give me examples 
of that and what you think we could do to improve things a 
little?
    Mr. Bennett. Well, I can, without opening up a can of 
worms.
    We're a Federal contractor, and we perform work under the 
Davis-Bacon Act. And on those projects, just hypothetical, if 
it was a $30 million project, and let's say the contract 
required that for every million dollars' worth of work you had 
to have an apprentice. Typically, an apprentice, let's just 
hypothetically say, is making 50 percent of that journey-level 
wage.
    If you don't have a registered apprenticeship program, that 
work still needs to be performed. You would end up putting 
journey-level professionals in those apprenticeship spots and 
you will pay the journey-level wage on those projects.
    Where that ends up becoming expensive to the client, the 
State, the Federal Government, is you're paying wages for 
journey-level folks in an apprentice-level program that's 
unnecessary, and you're not developing the future workforce.
    And sometimes we hear that the registration process can be 
fairly simple. In the same terms that there are jobs that take 
a long time to develop, there are also projects where we're 
reacting today and sending people to another State in this 
country to go to work, and we may not be registered in that 
State. In fact, we may have never worked in that State before. 
In the time that it takes to get something registered, that's 
where some of the hurdles come in for us as a national 
contractor.
    Mr. Grothman. Okay. I'll give you one more question here.
    You talked about -- I'm sorry, Cianbro? Is that how --
    Mr. Bennett. Cianbro.
    Mr. Grothman. Cianbro. Okay. And the things you do to 
ensure worker safety, and they're all excellent qualities to 
have in a business, and it's fair to say we need more companies 
like yours.
    That being said, you were also particularly critical of the 
rigidity of the Department of Labor's Registered Apprenticeship 
Programs and the fact they frequently do not meet the needs of 
industry. Could you elaborate on that a little more?
    Mr. Bennett. Yeah. Some of the rigidity that's within those 
programs in terms of the time, what consists of a registered 
program.
    So in our world, as an open shop contractor, as we develop 
a skilled craft professional, that individual -- I'll just use 
carpenter as an example -- when someone goes through our 
program, that carpenter is also going to be provided with 
equipment operation skills, either to move material from point 
A to point B. They're going to be taught equipment operation 
skills that might allow them to access a work area like aerial 
lifts. They could also be taught rigging skills, because that 
material that they need to move needs to be rigged in such a 
way that it's done safely and can be moved safely.
    In our world, that is what a skilled program would look 
like and consist of. It's not a one-dimensional, that carpenter 
needs finished work, framing, but they're going to be a form 
carpenter on a bridge.
    So there are restrictions within there where there are 
things that we have to teach, which costs money, it takes time 
and energy, that will never be applied on a project.
    Mr. Grothman. Okay. Thank you very much.
    Mr. Smucker. Thank you. The chair would just ask the 
witnesses to watch the clock. Intend to finish a question, but 
be aware of the time limitations.
    Mr. Grothman. It was the Congressman's fault. I tricked 
him.
    Mr. Smucker. All right. Now I would like to recognize Mr. 
Polis for 5 minutes of questions.
    Mr. Polis. Thank you, Mr. Chairman.
    You know, apprenticeships like we've discussed today are a 
critical tool in connecting Americans with good-paying jobs and 
lifelong careers to support themselves and their families. And 
the topic of apprenticeship is a very relevant one.
    It's also not a new one. For years, of course, unions in 
Colorado and many other States have been leading the way to 
connect people with apprenticeship programs to provide quality 
education and on-the-job training.
    Trevor Keller is one example. Joining the IBEW 
apprenticeship program gave Trevor the opportunity to get paid 
in the classroom while also receiving a comprehensive education 
and onsite training. They aren't just given an instruction 
sheet and told to operate without first knowing the mechanics 
and science behind electrical work.
    On top of classroom education, apprentices also are paid a 
living wage while working on the lines. Trevor is confident 
after finishing the IBEW apprenticeship that he has the skills 
and dollars to continue to his career as a journeyman.
    Mr. Hogan, thanks for joining us. I think a key part of 
Trevor's story is that quality apprenticeship programs aren't 
just on-the-job training programs, they're also education 
programs. Can you share more about Newport News Shipbuilding's 
education program and how you combine traditional learning with 
skills training?
    Mr. Hogan. Certainly. At Newport News, as I said, it's a 
mix of the craftsmanship, the scholarship, and the leadership.
    On the academic portion of it, students, when they start 
the apprentice program, very similar to what Mr. Peglow 
demonstrated, is they may go to classes 2 or 3 days a week, and 
the remainder of that week would be on-the-job training.
    They take classes everywhere from the mathematics, algebra, 
trigonometry, geometry, calculus. Then we get into more 
shipbuilding-related things like marine design, naval 
architecture, marine engineering. We do physics. We run the 
gamut of very high requirements in STEM-type classes.
    And that is part of the preparation not only for them to 
become a better skilled worker in our company, but then that 
also does marry up with the leadership component of it. So that 
they are not only just leaders in the company, but they are 
leaders within their trade discipline.
    Mr. Polis. Mr. Bennett, thanks for joining us as well. You 
mentioned in your testimony your company is 100 percent 
employee owned. And I'm excited your company has employees and 
employee ownership that can benefit from the value being 
created.
    I recently introduced a bill, the WORK Act, that encourages 
employee ownership as a business structure. Can you share more 
about your company's decision to be a 100 percent employee-
owned company and how that is consistent with your values and 
your apprenticeship program?
    Mr. Bennett. Sure. I mean, it goes back many, many years 
now. But our philosophy is treating people with dignity and 
respect.
    And the founders of the organization made a very conscious 
decision that the people that helped build the organization and 
make it successful should reap the benefits of that. And so 
many years ago we converted to a 100 percent employee-owned 
organization.
    And where that adds value is our team members believe they 
have skin in the game in every single decision that they make. 
We choose to work safe, we choose to look out for one another, 
give back to our communities.
    And so that whole culture that we've established goes all 
the way back to our founders and our values.
    Mr. Polis. Thank you.
    And, Mr. Hogan, you also mentioned that some programs at 
the apprenticeship school can lead to an associate's or 
bachelor's degree. One benefit of apprenticeship programs is 
that you can earn a credential at the same time you earn a 
living wage.
    Can you talk more about how your program supports students' 
financial needs while they're in school? Does it allow you to 
serve a more diverse class of students, including people who 
may be older or have a family, who have a kid at home, those 
kinds of things?
    Mr. Hogan. Thank you for coming back to me as well, because 
I did want to further clarify that those classes that they take 
in their normal academics, now the schools is accredited such 
that they are transferable towards a 2-year degree at the 
community college level.
    They are then able to take that, if it's their choosing, 
and go to a 4-year institution. And they can often do that on 
their own time, while they're still working for the company, or 
we even grant educational leaves of absence for them to go do 
that.
    We do actually have apprentice programs set up on the 
advanced curriculum side where we have partnered with Old 
Dominion University and a person can extend their 
apprenticeship to where when they graduate they would actually 
have a 4-year degree from Old Dominion University in one of the 
engineering disciplines.
    As well, that education is entirely paid for. They graduate 
not only with a job, but that degree and zero student debt.
    Mr. Polis. Thank you. And I yield back.
    Mr. Smucker. Thank you.
    The chair would now like to recognize Mr. Allen for 5 
minutes of questioning.
    Mr. Allen. Thank you, Chairman.
    And I want to thank the panel for coming in and talking 
about this important area of job training. And we've got 6.5 
million jobs, I understand, that are open in this country for 
skill, for a skilled workforce, and we're having a hard time 
getting folks trained up for these positions.
    And, Mr. Bennett, I agree with your testimony that 
President Trump's executive order is an important first step in 
aligning workforce development with the industry demands. I 
wholeheartedly support our President's effort. He, like I, 
wants to get folks back to work in this country. That's why I 
came here.
    It's important that innovative methods the private sector 
is using to grow our skilled workforce are embraced and 
encouraged by the government. However, in Section 4 of the 
executive order, the Secretary of Labor has the ability to 
exclude an industry from this great new program if that 
industry has already effective, substantially widespread 
registered apprenticeship programs.
    Can you tell me -- and, of course, my industry was 
construction -- what it would mean if the construction industry 
was excluded from this apprenticeship system?
    Mr. Bennett. Yeah. I think if we were excluded, we're going 
to sell ourselves short as a country. And there's no doubt that 
apprenticeship model has been successful. But given the volume 
that we're facing in that skilled workforce shortage and what 
we're anticipating given the infrastructure bill that could 
possibly pass, that model, in itself, is not going to get us 
there.
    And as I said earlier in my testimony, the construction 
industry alone has not been built on registered apprenticeship 
programs. There has been workforce development going on since 
the beginning of time, some of which has been registered, some 
of which has not. But it's industry recognized.
    And there are many, many companies in this country -- in 
fact, in the construction industry 86 percent of it is done 
open shop. And many of those organizations are providing 
workforce development opportunities for their teams that's 
outside of that registered apprenticeship model.
    So I think it's very premature for us to eliminate anything 
at this stage of the game. We should understand, again, what is 
working, how do we replicate that. And not just within the 
registered model, because apprenticeship isn't just registered. 
There's apprenticeships that are nonregistered.
    And we're alive and well here today and can demonstrate how 
successful those programs are and show you where individuals 
who were making sandwiches have doubled their salaries and are 
now skilled craft professionals in our organization and can 
show you multiple examples of that. And we're just one little 
company based out of Maine. This is happening all across this 
country.
    And I'll just leave you with this quick. My driver this 
morning was from Ethiopia, moved here in 1996. Today he has his 
own business with five employees, and he was sharing with me 
how fortunate he is to be in this country, because up until 
sixth grade, he did not have shoes.
    And his story was just empowering, and so it makes me 
think, as we're sitting here today, what a wonderful 
opportunity this country has. We have more work than we have 
skilled people. We're not wondering how to put bread on the 
table or put shoes on our feet. We have opportunities to help 
the American citizens do just that. And that's our job, is to 
create those opportunities in multiple pathways so that we can 
provide what he's come all the way from Ethiopia for, to 
provide for his family. It's just a wonderful opportunity.
    Mr. Allen. It is. That's why America is a light into a 
different world.
    Mr. Peglow, I'd like to know some of the things you learned 
from working alongside an experienced technician that you 
wouldn't have learned if you only had classroom experience and 
no work component to your curriculum.
    Mr. Peglow. Some of the things that I've learned from other 
technicians are kind of what we call tricks of the trade, just 
different things that aren't in the books that are very career 
specific or job specific.
    Different jobs always have different little tricks. They're 
still safe tricks, but just quicker ways or things you learn 
from experience of doing different things. It just depends on 
what it is, anywhere from motors, to different tricks with 
welding, machining. They all have their own little tricks to 
them.
    Mr. Allen. So you're benefitting from their experience?
    Mr. Peglow. Yes, sir, very much so.
    Mr. Allen. And you'll be able to pass that on to the -- 
you'll be a mentor someday. That's great.
    As far as the -- and I'm just about out of time -- but 
what's important is that we've got to get 20, 25 million people 
back to work in this country. I thank you for your efforts on 
behalf of that. And please let me know how I can work with you.
    And I yield back.
    Mr. Smucker. Thank you.
    I'd like to now recognize Mr. DeSaulnier for 5 minutes of 
questioning.
    Mr. DeSaulnier. Thank you, Mr. Chairman and the Ranking 
Member. Thank you for this important hearing.
    I want to talk a little bit about the importance of, of 
course, everything we're talking about, but ultimately in my 
experience, I represent a part of California, a part of the Bay 
area that has a heavy concentration of our industrial belt.
    I know people don't believe that northern California, the 
Bay area, has industry, but we've got five refineries in the 
area that I've represented in local and State and now at the 
Federal level, and chemical plants, and they work well. But we 
have very high standards when it comes to apprenticeship 
standards. We require prevailing wage. It works because it is a 
high cost area.
    So in my experience one of the most difficult things -- and 
it's not saying I'd be against industry certification -- is 
making sure we're holding them. And the Federal Government's 
role in this is not just incentivizing, but making sure -- and, 
granted, Mr. Peglow, every job has tricks to it, and that's an 
art form that we should acknowledge -- but in the testing, 
making sure it's objective and we're getting the higher 
standards.
    Because the employers I talk to, the question isn't that 
they have jobs, as others said, or that there's not a workforce 
there, but they're not trained well enough. In a global 
economy, we can't fool people. We have to hire people to a high 
standard.
    So we should invest in these programs. We should look at 
programs that the employers are an equal partner in. Most of 
our programs are partnership with the employees. The employers 
have been in business for many, many years, doing specific 
projects in specific industries.
    So, Mr. Hogan, maybe you can help me just a little bit. How 
do we get those independent standards to make sure we verify, 
and what's the Federal Government's role to assuring that 
happens? In California we have a State apprenticeship board. 
Both Republican and Democratic governors have appointed members 
of that board. And they have very high standards, 
apprenticeship standards.
    And a lot of unaffiliated companies don't like those 
standards. They're freely able to compete with those standards. 
But we want to bring everybody up to a level to make sure that 
it's truly open competition, because in a global marketplace, 
if they're not skilled, we're not going to get them employed 
for very long.
    Mr. Hogan. It's a great question. And I've had that or 
something similar to it before. And it's also been posed, what 
advice would you give another company that was trying to start 
an apprenticeship program and model it somewhat after what 
we've got? And there's a couple components of that.
    One is we always start with having them contact their State 
or regional apprenticeship representative and get the standards 
on apprenticeship. And so that becomes a feeder to your 
registration process, is at least you've got some standards 
that you're working to that is recognized at the State level.
    If time permits, for the organization to benchmark other 
apprenticeships, because you can always learn something from 
somebody that has one established.
    We participate in, and we encourage them to seek out the 
American Apprenticeship Roundtable who shares best practices of 
apprenticeships across the Nation. And then working with their 
local community college system or technical work centers to 
fill the gaps on the scholastic portion of it that they may not 
be able to provide.
    Mr. DeSaulnier. And in terms of Federal opportunities for 
grants and incentives, how important is it to make sure that 
they are truly objective and based on these standards that are 
best practices and are objective standards?
    Mr. Hogan. And I think that's part of the challenge that we 
have, is having those standards and having them linked to some 
type of funding stream, I think, is important without them 
becoming overly burdensome, cumbersome, or costly on the 
organization that's trying to develop them.
    Again, only familiar with ours in the Commonwealth of 
Virginia. As I've stated earlier, we have found that not to be 
that difficult. They don't require revision unless we make 
major changes to it.
    It's really about providing that organization the details 
that we have on what are the work processes we're teaching, 
what are the academic components of that, what are the job 
rotations, and how do we assess the skills and abilities on a 
standard basis for all the employees involved in 
apprenticeship.
    Mr. DeSaulnier. Ms. Hughes, I struggle with -- I really 
believe, since I've come to Congress, that this is a country 
that's very different. So the magic sauce of getting these 
standards at a Federal level, but allowing for different States 
to come up with different approaches. So what works in northern 
California may or may not work in Kentucky.
    However, we have people who travel from your State, I 
imagine, certainly from Texas and Louisiana, to work at our 
chemical and petroleum industries. So they have to abide by our 
standards when they come into California.
    So certainly we can have both. We have to have both. You 
have to have freedom to decide what's best and what's working 
in Kentucky, but you can learn from other jurisdictions just as 
California can learn from Kentucky.
    So I wonder if you could -- if you have instances of that 
or any kind of comment?
    Ms. Hughes. I think it's very important that we do learn 
from each other, and that's the wonderful thing about Kentucky 
FAME. As companies come together, they share best practices 
about safety, about recruiting, and those types of things.
    And I do agree with you that we do need both in this 
country. I think all of the people on this panel agree to that, 
that we've got to get a skilled workforce. And we do want 
standards. I agree with Mr. Bennett wholeheartedly that we do 
not want different standards, because all the companies 
definitely want highly skilled and highly trained individuals.
    Mr. DeSaulnier. Thank you. I yield back.
    Mr. Smucker. Thank you.
    I would now like to recognize Mr. Lewis for 5 minutes.
    Mr. Lewis. Thank you, Mr. Chairman. I have here a copy of 
our local paper, and the headline says: ``Shortage of Skilled 
Workers Squeezing Twin Cities Builders.'' In fact, there's a 
quote in here from Robert Heise, president of the Minnesota-
North Dakota Chapter of Associated Builders and Contractors, 
quote: ``We have more work than we know what to do with.''
    So this workforce training issue is front and center not 
only in the Twin Cities, in my home State of Minnesota, but 
across this country, as your testimony has shown, and the 
questions, and the give and take here.
    So let me explore this a little bit, Mr. Bennett, and start 
with you. If, in fact -- or, as I understand, the DOL's Office 
of Apprenticeship right now, after the regulations under the 
previous administration, there are 26 specific requirements 
relating to an apprenticeship program design. There's an 
apprenticeship-specific equal employment opportunity 
regulation. There's all sorts of hoops you've got to jump 
through.
    And, yet, an estimated 80 percent of all apprenticeships, 
or earn-and-learn programs, aren't registered. So what are 
those folks missing out on that they wouldn't otherwise? I 
mean, what is the downside? Obviously, you're out from under 
the regulations. But what are you missing out on, in your view, 
by not being registered or having these obstacles to a 
streamlined registration process?
    Mr. Bennett. I don't know that we're missing out on 
anything. And it might be more we're using the word registered 
versus recognized. And so those developmental programs that are 
taking place all across the country with those contractors that 
you referenced, I think what we're looking for is we're looking 
for recognition for all that hard work that's being put in 
place to develop our current workforce and our future 
workforce.
    And it's not that we're looking for it to be regulated, 
because it's been going on for years. And, like I said, it's 
been very successful. But at least be recognized so as you're 
coming into a new State and there are requirements that need to 
be met, having the ability to say, well, it doesn't have to 
just be in this model, those same expectations could be met in 
a different career path or on multiple pathways.
    Mr. Lewis. Well, as I understand it, though, you are exempt 
if you're registered or recognized from some Federal 
requirements that make it easier to conduct the program. You 
had mentioned earlier how the flexibility of your industry-led 
programs, many others as well, had developed these pipe welders 
for their 12-week program.
    That sort of flexibility, is that possible under a 
recognized or registered apprenticeship program, to do what 
that program did?
    Mr. Bennett. Well, your typical -- if I just took a 
typical, you know, the outline of a registered apprenticeship 
program, that's going to require -- I think the minimum is 144 
hours, don't quote me on this, and a minimum of 2,000 worker. I 
think those are the basics and it increases from there.
    That can be restrictive, I mean, with an open shop, our 
open shop philosophy and are merit based. We want to progress 
those that have the ability to demonstrate the competency at 
their own pace. If they master a particular skill and can 
progress, we want them to progress and not be held back by the 
rest of their classmates.
    No different than if somebody needs remedial training. We 
want the opportunity to provide the remedial training without 
being handcuffed by the restrictions of a particular program.
    Mr. Lewis. One final quick question, and that is, under the 
President's executive order it provides that any industry-
recognized apprenticeship program should be considered for an 
expedited or streamlined registration where possible. Except, 
as we've talked about, it will carve out, or in any sector in 
which the Department of Labor has registered apprenticeship 
programs that are already effective or widespread, they might 
be exempt from this expedited process.
    I mean, obviously, that would impair your ability to design 
some of these programs, correct?
    Mr. Bennett. Yes, it would. Yes.
    Mr. Lewis. All right. Thank you. I yield back.
    Mr. Smucker. Thank you, Mr. Lewis.
    I'd like to now welcome Mr. Norcross to the subcommittee. 
And hearing no objection, I recognize Mr. Norcross to question 
the witnesses for 5 minutes.
    Mr. Norcross. Thank you, chairman. This is something near 
and dear to my heart. I went to the other 4-year school, an 
apprenticeship. I'm a graduate of a registered apprentice 
program in electricity. I'm a journeyman wireman by trade long 
before I came here. And I have heard quite a bit of information 
coming here.
    The good news is, for the vast majority of it, we're all 
aligned. But in some cases, I think that there's potential for 
misinformation that I have heard today. The building trades 
crafts have over 1,900 training centers around this country. 
They spend $1.3 billion a year, not government money, private 
money, and if this was a university, a public university, it 
would be five times larger than Arizona State University, the 
third largest university in this system. If it was a K-12, it 
would be the largest school district.
    So, as you understand, we don't have to recreate the wheel 
here. It works, and it works very well. But there are some 
issues that come to mind when we start talking about what is 
successful, what works, and what doesn't. I hear the word 
``flexible.'' There's a difference between an apprenticeship 
program, which is to become a journeyperson and skilled in that 
craft, versus continuing education, being flexible to adapt to 
market conditions. I don't think anybody would suggest to you, 
in 12 weeks, you will make a well-rounded welder who will build 
his career without additional training, maybe in very specific 
crafts, but that doesn't happen.
    Remarkably that, in the construction industry, where we 
just heard the claim that 80 percent of it is open shop, then 
why is it that the JATC, the union apprentices, provide 75 
percent of the apprenticeship programs? It is backwards. If 
they're doing that much work, then you would think they would 
do that. I might suggest to you there's another reason, because 
as an apprentice, you can be paid less than the journeyman's 
wages.
    So I ask to you, Mr. Bennett, what's the graduation rate of 
the apprenticeship programs with your company? And in the -- 
your sector?
    Mr. Bennett. In our sector, I would have to get back to you 
with the specifics for our sector, but I can give you a 
statistics --
    Mr. Norcross. Let me share with you what it is in New 
Jersey. For non-JATC programs, less than 30 percent of their 
apprentices graduate; with the JATC programs, north of 85 
percent. And this is where we see the difference. Involvement 
from employers and employees makes it a much healthier program 
understanding what they go through. Look at that cue. That's 
massive change in a registered program.
    There were, let me see here, last year, 1,700 new 
apprenticeship programs. It doesn't seem that it is that hard 
because there's 21,000 registered apprentice programs in this 
country, many from your company. And here it is. Five steps, 
quick-start toolkit to how to start an apprenticeship program. 
We're not talking you need a Ph.D. in making an apprenticeship 
program. This is something that can be and has been done. Tax 
credits for those with apprenticeships.
    So hearing the statements that you come up with don't jive 
with what's going on in reality. The fact of the matter is 
there's a shortage now because we came off the worst recession 
for the construction industry since the Depression. It takes 
time to build that back up. But, lo and behold, the 
apprenticeships over the course of the last 6 years up 
exponentially in this all from our registered apprenticeship 
program.
    So, when we read the executive order, it makes perfect 
sense. With all the items that are going on in this country, 
why are you trying to fix a program that works better and has 
been instituted for over 100 years? I think it should be the 
benchmark going forward, and certainly, Mr. Bennett, I would 
like to hear your opinion about those graduation rates and the 
differences.
    Mr. Bennett. And if I could just respond to that. We're not 
here to say that the registered apprenticeship program is 
broken. We're here to share with you that there is another 
model that is taking place to the tune of we're investing $1.1 
billion as well.
    Mr. Norcross. In nonregistered programs?
    Mr. Bennett. Nonregistered programs across this country.
    Mr. Norcross. Why wouldn't you register them if they're 
that easy?
    Mr. Bennett. Excuse me?
    Mr. Norcross. Why wouldn't you register your program since 
it is that easy?
    Mr. Bennett. The flexibility that is provided in these 
industry-recognized programs.
    Mr. Norcross. But you're in construction, 15 basic crafts. 
The electrons flow the same way in Maine as they do in New 
Jersey.
    Mr. Bennett. I completely agree, and that's why we're 
advocating there should be reciprocity because the electrons do 
flow the same, but there is not reciprocity amongst all the 
States with some of these programs. And I was reading a report 
and on the way down here this morning, the Aspen report, where 
it says that 50 percent of all registered apprenticeship 
programs that start within 1 year are eliminated. They don't 
finish. So it is not that program is broke. We're not here -- 
not arguing your point. What we want to convey is there is more 
than one way to develop skilled craft professionals in this 
country, and that's what we're trying to articulate.
    Mr. Norcross. So I heard -- and I see I'm out of time. We 
could spend a lot more time, but thank you for yielding the 
time. I appreciate it and the testimony that I heard. Thank 
you.
    Mr. Smucker. And, with that, I would like to again thank 
our witnesses for taking the time to testify before the 
subcommittee today, and I now recognize Ranking Member Davis 
for any closing remarks that she may be have.
    Mrs. Davis. Thank you very much, Mr. Chairman, and on your 
first day in the chair, you have done a good job. Thanks so 
much.
    And to all of you really. You have provided excellent 
testimony. There have been some differences, and that's great 
for us to hear, frankly, and to try and move forward and become 
better educated. We have some folks who actually have 
experienced this more than others. And I think what we need to 
do is to continue to ask the questions and figure out the 
extent to which there is a better case to integrate the 
programs in some way that is understandable to the public and 
also to provide even, you know, a national registry, if you 
will, so that we're able to really understand where we are and, 
I hope, where we're going to go, because that's really what 
this is about, is trying to scale up programs that work for the 
American people and provide those great jobs and wages and make 
sure that young people know that they can aspire and think 
about at a pretty early age, hopefully, where they want to go 
with this. So we're delighted.
    I also wanted to put into the record the National 
Electrical Contractors Association statement, and appreciate 
all of the attention today. Thank you very much.
    Mr. Smucker. Without objection.
    [The information follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Davis. I'm sorry, and the construction -- the other 4-
year degree.
    Mr. Smucker. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smucker. Again, I would just like to thank the chair of 
this committee for scheduling this hearing on this really 
important topic. It was fascinating, and I know the ranking 
member earlier mentioned some of the other industries outside 
of what we traditionally think of for apprenticeships, that -- 
other businesses that are establishing apprenticeship programs. 
I know I just recently spoke to Zurich Insurance, which is a 
Swiss company who has established an apprenticeship program. So 
this model can really be extended well beyond what we think of 
in traditional apprenticeship programs. And, in fact, 
Switzerland, Germany, and many European countries are doing 
just that. So we don't have to build a model from scratch here. 
We can look for best practices in other countries and other 
organizations.
    And so we have talked about the need for business, that, in 
my area, it is a crisis. Businesses cannot fill jobs, and you 
know, I think our businesses in America are the best in the 
world at adapting to that changing business environment, and no 
one knows better than they in what skills and abilities the 
employees need in order to succeed. And I think today we heard 
some really great examples of programs that are working and 
programs where businesses are helping to lead the way to 
develop excellent education and workforce development programs 
that are really providing workers with the skills that are 
needed for these high-demand jobs.
    So I'm very pleased with the discussion that we have had 
today. I know the chair looks forward to working with all 
members of the committee. This really is not a partisan issue, 
and so I think this subcommittee and the committee looking 
forward to solutions that we can come up with and work with the 
administration to advance this.
    So thank you so much.
    Without objection, there being no further business, the 
subcommittee now stands adjourned.
    [Additional submissions by Mr. Courtney follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 12:11 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
